\

APPENDIX A
District Court’s Order and Memorandum Opinion of June 18,2020

v

/

4

t

Appendix A

Case l:20-cv-00174-LMB-JFA Document 14 Filed 06/18/20 Page 1 of 18 PagelD# 264

IN THE UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF VIRGINIA
Alexandria Division
JAMES TOLLE,

)
)
)
)

Plaintiff,
v.

)

1:20-cv-l 74 (LMB/JFA)

)
)
)
)

ROCKWELL COLLINS CONTROL
TECHNOLOGIES, INC., etaL,
Defendants.

MEMORANDUM OPINION
Prose plaintiff James Tolle has tiled a complaint against his former employers Rockwell
Collins Control Technologies, Inc., Collins Aerospace, Rockwell Collins, Inc., and United
Technologies Coiporation (collectively “Rockwell Collins” or “defendants”)1 alleging religious
discrimination, a hostile work environment, and failure to provide an accommodation in
violation of Title VII of the Civil Rights Act of 1964, as amended, 42 U.S.C. § 2000e etseq.
Plaintiff s claims center around Rockwell Collins's decision to display a rainbow Gay Pride flag
on its flagpoles for a 30-day period. Defendants have moved to dismiss. For the reasons that
follow, defendants’ motion to dismiss will be granted and the complaint will be dismissed.
I.

Although plaintiffs complaint and opposition contain a combined total of 217 pages, the
factual allegations underlying the complaint are quite straightforward. Plaintiff, who describes
himself as a practicing Catholic, worked for Rockwell Collins as a contract employee from April

i

Defendants assert that plaintiff’s former employer was solely Rockwell Collins, Inc., which
operates under the brand name Collins Aerospace, and that all other entities named as defendants
we improperly identified because they did not employ plaintiff.

Case l:20-cv-00174-LMB-JFA Document 14 Filed 06/18/20 Page 2 of 18 PagelD# 265

2016 until May 2018 when his contract ended. Compl. [Dkt No. 1] U 21,23,24,74. In
November 2018, plaintiff began working on another contract with Rockwell Collins at its
Sterling, Virginia location, a position he remained in until October 2019, when he left his
employment with defendants. |d. 25,29.2
For the month of June 2019, in honor of Pride month, Rockwell Collins displayed the
rainbow Gay Pride flag on the flagpoles at each of its locations, including the Sterling, Virginia
location. Id. ^ 30. On June 15,2019, Tolle met with his supervisor Amine Mechiche-Alami
(“Mechiche-Alami”) “to complain that [he] found the display of the Gay Pride flag at the
Sterling location unwelcome and offensive because of his religious belief and practices,” “which
did not allow him to participate in any activity which publicly associated him with the Gay Pride
movement.” Id. f 31. He further told Mechiche-Alami that flying the flag “created an
unwelcome, hostile environment which interfered with his work at that location,” and that “he
would prefer to be able to work offsite or at another location where this offensive object was not
being displayed as an accommodation of his religious beliefs.” Id. On June 27,2019, Tolle
emailed Mechiche-Alami to complain further, stating “I will probably go home to work offsite as
I still don’t feel comfortable working under a flag which I find offensive for religious reasons.”
IsLf 32. Tolle claims he received no response from Mechiche-Alami. Id. f 33.
On July 9,2019, after Pride month had concluded and the Gay Pride flag had been taken
down, plaintiff met with an engineering manager, Eric Brewer (“Brewer”), to report his concerns
about the flag. Id. ^ 33. Plaintiff informed Brewer that if Rockwell Collins had a policy of flying
Ae flag every year, “this would create an offensive or hostile work environment under which

2 The complaint states that “[a]t all times during his work at Rockwell Collins, Tolle worked
through the Bentley Global Resources’ staffing contract with the Rockwell Collins’ employment
agency”Idf21.
2

Case l:20-cv-00174-LMB-JFA Document 14 Filed 06/18/20 Page 3 of 18 PagelD# 266

Tolle could not continue to work.” |dL Tolle again asked whether he could work at a different
location at which the flag would not be flown. Id. Brewer instructed plaintiff to contact Human
Resources. Id.
On July 17,2019, Tolle sent an email to Human Resources representative Julie Jones
(“Jones”) to complain about the flag. Tolle informed Jones that he viewed “this flag as
something which is not neutral, but something which promotes one minority’s viewpoint about
pride in homosexual lifestyles and treats other minority viewpoint’s [sic] who don’t agree with
them as bigots” and that he was “left with the feeling that [Rockwell Collins]... is not a place
where a Christian who does not support Gay Pride should work.” Id. 34. Tolle asked Jones,
“[i]f I say something as an employee which does not support the flying of the Gay Pride flag...
will I face discipline or other adverse actions by management?” Id. Tolle also reiterated his
request to work at a different location that did not display the flag. Id. f 35.
The next day, Jones responded that “to [her] knowledge all the [Rockwell Collins]
locations that have flagpoles flew the flag.” Id. f 39. Jones also warned plaintiff, “[i]f you use
derogatory language to refer to someone due to their... sexual orientation... that is not
tolerated.” Id. f 41. Plaintiff replied that Jones’s email “seemed to automatically assume that
[his] opposition would be derogatory towards homosexuals,” which “underscores [his] concerns
that a person who shares [his] religious convictions and opinions which do not support the Gay
Pride agenda will normally be treated as a homophobe or bigot within the company.” Id. f 44.
Jones also provided plaintiff a document which confirmed that Rockwell Collins displays
only one other “minority flag,” namely the “Prisoner of War (POW) flag,” which “is only flown
at a single location on isolated days during the year.” Id. f 40. The document also stated “[t]he
company leadership is fully supportive of the effort to recognize PRIDE month as we believe it

3

Case l:20-cv-00174-LMB-JFA Document 14 Filed 06/18/20 Page 4 of 18 PagelD# 267

reflects many of our company's values,” but plaintiff claims it “did not make any attempt to
express such wholehearted support for any other minority .” Id.
On July 23,2019, plaintiff received an email from Rockwell Collins’s attorney Michael
Wade, which stated:
[W]hile individuals who work for... [Rockwell Collins ]... are free to their own
personal, political, or religious views, doctrine, membership, etc., we expect
employees to take care to communicate with co-workers in a respectful,
professional, and non-discriminatory or harassing manner.... Any employee
who treats another in a way that contradicts this expectation will subject him or
herself to discipline, up to and including termination.
I& f 46. Wade’s email went on to clarify that “the Company does not sponsor or support any
particular religious or political viewpoint, practice or membership to the exclusion of others.” Id.

148.
On August 1,2019, Mechiche-Alami told Tolle to contact engineering manager Jay
Dabhade concerning a possible offer to become a regular employee for Rockwell Collins. |d.
If 49. On August 2,2019, Dabhade told Tolle that Rockwell Collins wanted to hire Tolle as a
regular employee and that he could apply for a.position once it opened. Id. On August 21,2019,
Tolle applied for a position as a regular software engineering employee. Id. f 50. On August 29,
2019, a Rockwell Collins recruiter offered Tolle the job via email. Id. The proposed start date for
the position was September 16,2019. [Dkt. No. 1-3].
On September 3,2019, plaintiff “informed Rockwell Collins that he could not accept the
position due to the continuing discriminatory policies of Rockwell Collins and because he would
have to abandon or alter his religious practice in order to continue working in any role at
Rockwell Collins.” [Dkt. No. 1] 28. Plaintiff argued that “flying an object [he] found offensive
due to religious reasons over all locations of the company for 30 days every year in the future
was sufficiently severe or pervasive to alter the condition of [his] employment.” Id. f 53.
4

Case l:20-cv-00174-LMB-JFA Document 14 Filed 06/18/20 Page 5 of 18 PagelD# 268

Because of his concerns, plaintiff “left his work at Rockwell Collins in or around October 2019,”
which he characterizes as a “constructive discharge.” Id. H 29.
On September 28,2019, plaintiff sent a letter to the United States Equal Employment
Opportunity Commission (“EEOC”) alleging that Rockwell Collins had discriminated against
him. Mr 156. On November 16,2019, plaintiff filed a formal complaint with the EEOC, alleging
that Rockwell Collins discriminated against him and other Christians, perpetuated a hostile work
environment, threatened to retaliate against him, and constructively discharged him. Id. f 57. On
December 4,2019, the EEOC informed plaintiff that “[bjased upon its investigation, the EEOC
is unable to conclude that the information obtained establishes violations of the statutes.” Id.
U 58. The letter from the EEOC also notified plaintiff that if he wished to file a lawsuit against
Rockwell Collins, he must do so within 90 days. Id. f 59. On January 9,2020, Tolle filed a
corrected complaint with the EEOC, which the EEOC construed as a request for reconsideration,
and denied on February 13,2020. Id.

60-62.

Plaintiff timely filed the instant litigation on February 19,2020. Plaintiff’s complaint
does not include clearly delineated counts; instead, it sets forth five “causes of action,” each of
which includes a variety of subheadings, such as “[cjlaim related to ... [c]ause of [ajction,”
“[ajltemative [cjlaim related to... [cjause of [ajction,” “2nd Claim related to... [cjause of
[ajction,” and “[ajdditional [cjlaims related to... [cjause of [ajction.” Many of these claims are
repetitive, but it appears that plaintiff is generally alleging that Rockwell Collins created a hostile
work environment and harassed him, failed to accommodate him, and engaged in religious
discrimination, and that Rockwell Collins’s actions had a disparate impact on individuals “who
do not support Gay Pride because of religious reasons.” Id. f 154. The complaint seeks lost past

5

Case l:20-cv-00174-LMB-JFA Document 14 Filed 06/18/20 Page 6 of 18 PagelD# 269

and future earnings and benefits, compensatory and punitive damages, “[a]n order requiring
compliance,” costs of suit, and “[a]ppropriate interest, costs, and disbursements.” Id. at 80.
Defendants filed their motion to dismiss on May 4,2020. Plaintiff opposes the motion,
and argues that even if his existing complaint does not state a claim, the Court should allow him
to amend his complaint He has submitted a proposed amended complaint alongside his
opposition. Defendants have filed a reply brief, and the motion is ripe for review. Having found
that oral argument would not further the decisional process, defendants’ motion to dismiss and
plaintiffs request to file an amended complaint will be decided on the papers submitted.
II.
Under Federal Rule of Civil Procedure 12(b)(6), a complaint “must be dismissed when a
plaintiffs allegations fail to state a claim upon which relief can be granted.” Adams v.
NanhCare. Inc.. 244 F. Supp. 3d 546,548 (E.D. Va. 2017). “Therefore, in order for
a... complaint to survive dismissal for failure to state a claim, the plaintiff must allege facts
sufficient to state all of the elements of [his or] her claim.” Lucas v. Henrico Ctv. Sch. Bd.. 822
F. Supp. 2d 589,600 (E.D. Va 2011). “[A] [pjlaintiffQ cannot satisfy this standard with [a]
complaintQ containing labels and conclusions or a formulaic recitation of the elements of a cause
of action.” |d. “Instead, [a plaintiff) must allege facts sufficient to... stat[e] a claim that is
plausible on its face.” Ich “A claim has facial plausibility when the plaintiff pleads factual
content that allows the court to draw the reasonable inference that the defendant is liable for the
misconduct alleged.” Id. In evaluating a motion to dismiss under Rule 12(bX6), “a plaintiffs
well-pleaded allegations are taken as true and the complaint is viewed in the light most favorable
to the plaintiff,” id.; however, “legal conclusions pleaded as factual allegations, unwarranted
inferences, unreasonable conclusions, and naked assertions devoid of further factual

6

Case l:20-cv-Q0174-LMB-JFA Document 14 Filed 06/18/20 Page 7 of 18 PagelD# 270

enhancement are not entitled to the presumption of truth.” Wikimedia Found, v, Nat’l Sec.
Aeencv. 857 F.3d 193,208 (4th Cir. 2017).
“In cases where the plaintiff appears pro se. courts do not expect the prose plaintiff to
frame legal issues with the clarity and precision expected from lawyers.” Suggs v. M & T Bank.
230 F. Supp. 3d 458,461 (E.D. Va. 2017). “Accordingly, courts construe pro se complaints
liberally.” Id. “This principle of construction, however, has its limits.” Id. A court “may not be
an advocate for a pro se plaintiff and must hold the complaint to certain minimal pleading
standards.” Hongan Lai v. Den’t of Justice. No. 5:13-cv-33,2013 WL 3923506, at *3 (W.D. Va.
July 29,2013).
III.
A. Hostile work environment and harassment
A Title VII claim of a hostile work environment based on religious discrimination
requires a plaintiff to allege that harassment was “(1) unwelcome, (2) because of religion, (3)
sufficiently severe or pervasive to alter the conditions of employment and create an abusive
atmosphere, and (4) imputable to the employer.” E.E.O.C. v. Sunbelt Rentals. Inc.. 521 F.3d 306,
313 (4th Cir. 2008). “(T]o clear the high threshold of actionable harm, the conduct in question
must (1) be ‘severe or pervasive enough to create an objectively hostile or abusive work
environment,’ and (2) be subjectively perceived by the victim to be abusive.” E.E.O.C. v. R&R
Ventures. 244 F.3d 334,339 (4th Cir. 2001) (quoting Harris v. Forklift Svs.. Inc.. 510 U.S. 17,
21 (1993)). In evaluating whether a workplace is a hostile environment, courts must look to “all
the circumstances,” including “the frequency of the discriminatory conduct; its severity; whether
it is physically threatening or humiliating, or a mere offensive utterance; and whether it
unreasonably interferes with an employee’s work performance.” Id. at 339. The “standards for

7

Case l:20-cv-00174-LMB-JFA Document 14 Filed 06/18/20 Page 8 of 18 PagelD# 271

judging hostility are sufficiently demanding to ensure that Title VII does not become a ‘general
civility code.’” Faraeher v. City of Boca Raton. 524 U.S. 775,788 (1998) (quoting Oncale v.
Sundowner Offshore Services. Inc.. 523 U.S. 75,80 (1998)). “[C]omplaints premised on nothing
more than... callous behavior by [one’s] superiors... or a routine difference of opinion and
personality conflict with [one’s] supervisor... are not actionable under Title VII.” Sunbelt
Rentals. Inc.. 521 F.3d at 315-16 (internal quotation marks and citations omitted). Plaintiff
argues that he has met these pleading requirements, while defendants respond that the conditions
alleged were not sufficiently severe or pervasive to constitute a hostile work environment.
Defendants have the better argument.3
Even if accepted as true, the factual allegations in the complaint do not come close to
stating a claim for a hostile work environment based on religion, which the Supreme Court has
described as a workplace that is “permeated with discriminatory intimidation, ridicule and
insult” Harris. 510 U.S. at 21 (internal quotation marks and citations omitted). The sole basis for
plaintiffs claim is that defendants flew a Gay Pride flag on their flagpole for 30 days and warned
plaintiff that he could not harass others or use derogatory language to refer to someone due to
their sexual orientation. This conduct was not frequent, severe, or physically threatening or
humiliating, nor did it unreasonably interfere with plaintiffs work performance. As defendants
point out, “Rockwell Collins did not ask [p]laintiff to engage in a homosexual relationship or to
condone homosexual relationships. Rockwell Collins did not ask [p]laintiff to change or modify
his beliefs or require him to participate in any activities supporting the Gay Pride movement
Rockwell Collins did not ask [pjlaintiff to wear a Gay Pride t-shirt, display a Gay Pride flag at

3 Although defendants do not raise this argument, plaintiffs claim would also fail for the
independent reason that he has not alleged that any harassment he faced was “because of
religion,” which is the second element of a hostile work environment claim.
8

Case l:20-cv-00174-LMB-JFA Document 14 Filed 06/18/20 Page 9 of 18 PagelD# 272

_ Ms desk, or attend activities related to Gay Pride month. Plaintiff was not even required to look
at the flag: he merely had to pass by it in the parking lot before he entered the building for work”
and refrain from harassing others based on their sexual orientation. [Dkt. No. 10] at 3. Such
conduct falls woefully short of being “severe or pervasive enough to create an objectively hostile
or abusive work environment.” Harris. 510 U.S. at 21.4 Indeed, defendants’ instruction that
plaintiff must not harass others based on their sexual orientation was probably prudent,
particularly given the Supreme Court’s recent holding that employers are liable under Title VII
for discrimination based on sexual orientation. See Bostock v. Clavton Ctv.. Georgia, No. 17-

1618,2020 WL 3146686, at *3 (U.S. June 15,2020).
A review of cases in which die Fourth Circuit has found that a hostile work environment
could exist illustrates just how far plaintiff’s complaint Ms short of meeting the required
standard. For example, the Fourth Circuit has permitted a hostile work environment claim to
proceed where the plaintiff, a Muslim, was repeatedly called “Taliban” and “towel head,” told
that if he were caught praying at work, “that would be the end of Mm,” and faced extreme, daily
harassment such as defacing Ms property. Sunbelt Rentals. Inc.. 521 F. 3d at 316-319. In another
case, die Fourth Circuit held that a reasonable jury could find a hostile work environment where
the African American plaintiff was constantiy subjected to “racial comments... inciud[ing] the
use of such words as N*****, Black B*tch, and being called a monkey on an almost daily basis,”
and the plaintiff’s supervisor regularly “vilif[ied] anyone of African descent” and gave the
plaintiff a picture of a monkey with the notation “so you’ll never forget who you are.” Spriggs v.

4 This is not to suggest that an employer could not be liable for a hostile work environment for
posting a flag or another item associated with hatred or animus based on race, color, religion,
sex, or national origin; however, there is no indication that the Gay Pride flag is associated with
such animus.
9

Case l:20-cv-00174-LMB-JFA Document 14 Filed 06/18/20 Page 10 of 18 PagelD# 273

Diamond Auto Glass. 242 F.3d 179,182,189 (4th Cir. 2001).5 Even if plaintiff had adequately
alleged that his treatment at Rockwell Collins were “based on religion,” which he has not, his
experiences are a far cry from these examples of severe, pervasive harassment, and are much
more akin to the sorts of “isolated incidents” and “routine difference[s] of opinion... with
[one’s] supervisor” that the Fourth Circuit has held are inadequate to constitute a hostile work
environment. Sunbelt Rentals. Inc.. 521 F.3d at 315-16 (internal quotation marks and citations
omitted). The facts in this action are also similar to those in Kaohi v. John E. Potter. Postmaster
General. Appeal No. 01A60231, Agency No. 1F-968-0008-05 (March 23,2006), in which the
EEOC, which is the agency charged with enforcing Title VII, found that the placement of a Gay
Pride Festival parking pass in an employee’s locker was insufficiently severe or pervasive to
constitute actionable harassment. As defendants point out, the alleged harassment in this action is
even more attenuated than that at issue in Kaohi. because the Gay Pride flag at Rockwell Collins
was hot specifically directed at plaintiff.
At bottom, “[workplaces are not always harmonious locales, and even incidents that
would objectively give rise to bruised or wounded feelings will not on that account satisfy the
severe or pervasive standard. Some rolling with the punches is a fact of workplace life.” Sunhelt
Rentals. Inc.. 521 F. 3d at 315. Although plaintiff may have found defendants’ actions
subjectively upsetting, the objective prong of the hostile work environment test is “designed to
disfavor claims based on an individual’s hypersensitivity.” EEOC v. Fairbrook Med. Clinic.
P-A.. 609 F.3d 320,328 (4th Cir. 2010). Because plaintiffs complaint does not allege treatment
that objectively rises to the level of a hostile work environment, this claim must be dismissed.

5 That these cases were decided at the summary judgment stage does not alter the Court’s
analysis; these cases are simply cited to as examples of the sorts of factual patterns that may rise
to file level of a hostile work environment
10

Case l:20-cv-00174-LMB-JFA Document 14 Filed 06/18/20 Page 11 of 18 PagelD# 274

B. Failure to accommodate
Under Title VII, “an employer must make reasonable accommodation for the religious
observances of its employees, short of incurring an undue hardship.” IJ.S. Equal Employment
Opportunity Comm’n v. Consol Enemy. Inc.. 860 F.3d 131,141 (4th Cir. 2017) (internal
quotation marks and citations omitted). To state a claim for failure to accommodate, a plaintiff
“must plead facts sufficient to state, not to prove conclusively, all elements of a religious
accommodation claim: ‘(1) he

has a bona fide religious belief that conflicts with an

employment requirement; (2) he... informed the employer of this belief; [and] (3) he... was
disciplined for failure to comply with the conflicting employment requirement” Johnson v.
United Parcel Serv.. Inc., No. 14-cv-4003,2015 WL 4040419, at *9 (D. Md. June 30,2015)
(quoting Chalmers v. Tulon Co. of Richmond. 1010 F.3d 1012,1019 (4th Cir. 1996)).
Defendants persuasively argue that plaintiffs failure to accommodate claim fails both the first
and third prongs of this test.
First, plaintiff has not adequately alleged that he was subjected to any kind of
employment requirement, let alone one which conflicted with his religious beliefs. As defendants
point out, “[mjerely expecting Plaintiff to attend work in the same location that a Gay Pride flag
is generally displayed for one month does not amount to asking him to adhere to a conflicting
‘employment requirement.’ Rockwell Collins simply expected Plaintiff to come to work each
day.” [Dkt. No. 6] at 11. Second, even if requiring plaintiff to attend work while the flag was
flying constituted a conflicting employment requirement, the complaint is devoid of allegations
that plaintiff was disciplined for failing to comply with that requirement. In fact, far from
disciplining him, Rockwell Collins rewarded plaintiff by offering him a permanent position with
the company days after he complained about the flag. That plaintiff voluntarily declined to

11

Case l:20-cv-00174-LMB-JFA Document 14 Filed 06/18/20 Page 12 of 18 PagelD# 275

accept that position does not support a claim that Rockwell Collins’s actions were in any way
disciplinary. Accordingly, plaintiff’s failure to accommodate claim must also be dismissed.
C. Religious discrimination
“Title VII authorizes two causes of action against employers: disparate treatment
(intentional discrimination) and disparate impact.” Abdus-Shahid v. Mayor & City Council of
Baltimore. 674 F. App’x 267,274 (4th Cir. 2017) (internal citation omitted). “Although they are
similar in their objectives, each cause of action has different elements.” Id. “A disparate
treatment claim requires proof of discriminatory motive, although [that impermissible motive]
can in some situations be inferred from the mere fact of differences in treatment.” Id. (internal
quotation marks and citation omitted). “A disparate impact claim, in contrast, does not require
proof of discriminatory motive

Instead, disparate impact claims involve employment

practices that are facially neutral in their treatment of different groups but that in fact fall more
harshly on one group than another and cannot be justified by business necessity.” Id. (internal
quotation marks and citation omitted). Although it is not entirely clear from the complaint,
plaintiff appears to be asserting claims for religious discrimination under both theories. Both
claims fail.
1- Disparate impact
As an initial matter, some courts have held that disparate impact claims are not available
in religious discrimination cases, holding that “[cjourts recognize only ‘two theories in asserting
religious discrimination claims,’ which are ‘denominated as the ‘disparate treatment’ and ‘failure
to accommodate’ theories.’” Brennan v. Deluxe Corp.. 361 F. Supp. 3d 494,505 (D. Md. 2019)
(quoting Chalmers. 101 F.3d at 1017). Even if a disparate impact claim could theoretically be
available to plaintiff, his claim fails on the merits because he does not sufficiently allege “that

12

Case l:20-cv-00174-LMB-JFA Document 14 Filed 06/18/20 Page 13 of 18 PagelD# 276

one group of people, for reasons of religion... was impacted more than another” by defendant’s
practices. Kinnett v. Kev W + Sotera Def. Sols.. No. 5:18-cv-l 10,2019 WL 4023192, at *6
(W.D. Va. July 19,2019), report and recommendation adopted, No. 5:18-cv-l 10,2019 WL
4018347 (W.D. Va. Aug. 26,2019), affd, 798 F. App’x 765 (4th Cir. 2020).
2. Disparate treatment
A claim of disparate treatment may be established either by direct evidence or through
the burden shifting framework set forth in McDonnell Douglas Corp. v. Green. 411 U.S. 792
(1973). Where, as here, a plaintiff has not alleged direct evidence of discrimination, the elements
of a prima facie6 case of disparate treatment under Title VII are “(1) membership in a protected
class; (2) satisfactory job performance; (3) adverse employment action; and (4) different
treatment from similarly situated employees outside the protected class.” Coleman v. Maryland
Court of Appeals. 626 F.3d 187,190 (4th Cir. 2010), affd sub nom. Coleman v. Court of
Appeals of Maryland. 566 U.S. 30 (2012). Defendants persuasively argue that plaintiff cannot
satisfy the third element
Plaintiff has not adequately alleged that he suffered an adverse employment action. “An
adverse action is one that constitutes a significant change in employment status, such as hiring,
firing, failing to promote, reassignment with significantly different responsibilities, or a decision
causing a significant change in benefits.” Hovle v. Freiehtliner. LLC. 650 F.3d 321,337 (4th Cir.
2011). Although plaintiff resigned from his contract position and turned down Rockwell
Collins’s offer of a full-time position, “an employee’s voluntary resignation does not, as a matter

6 Although plaintiff correctly points out that he need not satisfy a prima facie case at this stage in
the proceedings, “courts may look to the requirements of a prima facie case as a guide in
assessing the plausibility of plaintiffs claim for relief.” Craft v. Fairfax Countv. No. 1:16-cv-86,
2016 WL 1643433, at *4 (E.D. Va. Apr. 26,2016).
13

Case l:20-cv-00174-LMB-JFA Document 14 Filed 06/18/20 Page 14 of 18 PagelD# 277

of law, constitute an adverse employment action.” High v.R&RTuynau* rtation. Inc.. 242 F.
Supp. 3d 433,446 (M.D.N.C. 2017) (citing Honor v. Booz-Allen & Hamilton. Inc.. 383 F.3d
180,186 (4th Cir. 2004)).
Plaintiff attempts to portray his resignation and declination of Rockwell Collins’s job
offer as a “constructive discharge.” This argument is meritless. Constructive discharge occurs
“[wjhere an employer deliberately makes an employee’s working conditions intolerable and
thereby forces him to quit his job.” Holsev v. Armour & Co.. 743 F.2d 199,209 (4th Cir. 1984).
A constructive discharge claim requires meeting a high standard —“‘something more’ than the
showing required for a hostile work environment claim.”7 Evans v. Int’l Paper Co.. 936 F.3d
183,193 (4th Cir. 2019) (internal citation omitted). Specifically, a plaintiff “must allege facts
demonstrating that he resigned and ‘that he was discriminated against by his employer to the
point where a reasonable person in his position would have felt compelled to resign.’” Ofoche v.
Apogee Med. Grp.. Virginia. P.C.. No. 19-1157,2020 WL 2554238, at *2 (4th Cir. May 20,
2020) (quoting Green v. Brennan. 136 S. Ct. 1769,1777 (2016)).
“Intolerability is not established by showing merely that a reasonable person, confronted
with the same choices as the employee, would have viewed resignation as the wisest or best
decision, or even that the employee subjectively felt compelled to resign.... Instead,
intolerability is assessed by the objective standard of whether a ‘reasonable person’ in the
employee’s position would have felt compelled to resign,.... that is, whether he would have
had no choice but to resign.” Evans. 936 F.3d at 193 (emphasis in original) (internal quotation
marks and citations omitted). When the complained-of issue “is isolated or infrequent, it is less

7 As described above, the Court has already concluded that plaintiff has not satisfied the more
lenient requirements of a hostile work environment claim.
14

Case l:20-cv-00174-LMB-JFA Document 14 Filed 06/18/20 Page 15 of 18 PagelD# 278

likely to establish the requisite intolerability.” Id. “[Difficult or unpleasant” or “[ejven truly
awful working conditions” may be insufficient to satisfy the intolerability requirement. Hill v.
Verizon Maryland. Inc,. No. 07-cv-3123,2009 WL 2060088, at *12-13 (D. Md. July 13,2009).
Plaintiff has not met, and indeed cannot meet, the requirements of a constructive
discharge claim. Even if plaintiff had plausibly alleged that Rockwell Collins’s actions were
deliberate, which he has not, his factual allegations do not meet the intolerability requirement.
Plaintiff’s working conditions during the month of June 2019 did not meaningfully depart from
the conditions under which he had previously been working; the sole difference that arose during
that 30-day period was that plaintiff walked by the Gay Pride flag on his way into work,
communicated with his supervisor and others about his discomfort with what the flag represents,
and was advised of the company’s policy prohibiting discrimination based on sexual orientation.
These conditions were “isolated and infrequent,” Evans. 936 F.3d at 193, and would have had
virtually no impact on a reasonable person’s working life. The Fourth Circuit has consistently
rejected constructive discharge claims based on working conditions much more intolerable than
those at issue here, including cases where the plaintiff was yelled at in front of customers, lost
supervisory responsibilities, was unfairly criticized, and had to endure his “supervisor
display[ing] a poster that may have been offensive to African Americans.” Jd. (collecting cases).
A reasonable person confronted with the same choices as plaintiff would not have
resigned his contract position or declined Rockwell Collins’s permanent job offer, but would
rather have continued working undeterred, and simply ignored the flag if he found it offensive.
“Unless conditions are beyond ‘ordinary’ discrimination, a complaining employee is expected to
remain on the job while seeking redress.” Id. (internal quotation marks and citation omitted). The

15

Case l:20-cv-00174-LMB-JFA Document 14 Filed 06/18/20 Page 16 of 18 PagelD# 279

conditions plaintiff describes do not go “beyond ‘ordinary’ discrimination”; in feet, they do not
constitute discrimination at all.8
Defendants have drawn a useful comparison with the Ninth Circuit’s decision in Peterson
v. Hewlett-Packard Co.. 358 F.3d 599 (9th Cir. 2004). In Peterson, the plaintiff was a selfdescribed “devout Christian” “who believes that homosexual activities violate the
commandments contained in the Bible and that he has a duty ‘to expose evil when confronted
with sin.’” M. at 601. A conflict arose between Peterson and his employer when the company
began displaying “diversity posters” in its office as one component of its workplace diversity
campaign, which included posters of employees with the captions “Black,” “Blonde,” “Old,”
“Gay,” or “Hispanic.” Id. In response, Peterson posted in his work cubicle Biblical verses
condemning homosexuality. These verses were visible to other employees and violated his
employer’s anti-harassment policy. Peterson’s managers engaged in extensive discussions with
him about their diversity campaign and why his actions violated their policy. Peterson was
eventually terminated for insubordination after he refused to remove the posted scriptures, and he
sued alleging religious discrimination under Title VII. The Ninth Circuit rejected Peterson’s
claim, observing that “[a]ll that [Peterson’s] managers did was explain [the company’s] diversity
program to [him] and ask him to treat his co-workers with respect. They simply requested that he
not violate the company’s harassment policy,” which does not constitute religious
discrimination. Id. at 604. The Ninth Circuit further concluded that although the defendant’s

8 Plaintiff further contends that “[requiring [him] to [a] Iter or [a]bandon his [r]eligious
practices” and “[defendants’ [rjesponse [to his complaints] which [contained [tjhreats of
[rjetaliation” constitute adverse actions. [Dkt. No. 9] at 6-7. This argument fails because neither
of those actions “constitutes a significant change in employment status, such as hiring, firing,
failing to promote, reassignment with significantly different responsibilities, or a decision
causing a significant change in benefits.” Hovle. 650 F.3d at 337.
16

Case l:20-cv-00174-LMB-JFA Document 14 Filed 06/18/20 Page 17 of 18 PagelD# 280

diversity campaign “devoted special attention to combating prejudice against homosexuality,...
such an emphasis is in no manner unlawful. To the contrary, [the defendant’s] efforts to eradicate
discrimination against homosexuals in its workplace were entirely consistent with the goals and
objectives of our civil rights statutes generally.” W. at 603.
Rockwell Collins’s decision to fly the Gay Pride flag during the month of June is
similarly consistent with the goals and objectives of our civil rights statutes. When plaintiff
challenged that decision, Rockwell Collins, like the employer in Peterson, simply explained the
company’s diversity initiative and “expressed the expectation that [pjlaintiff, like every other
employee, come to work each day and treat co-workers in a non-discriminatory manner.” [Dkt.
No. 10] at 1. Rockwell Collins did not ask plaintiff to endorse homosexuality or to abandon his
religious beliefs, and explicitly confirmed that it did not support one viewpoint over another and
that all employees were entitled to their own beliefs. Indeed, Rockwell Collins was much more
generous to plaintiff than the employer in Peterson: instead of firing plaintiff, Rockwell Collins
offered him a better job. For all these reasons, plaintiff has not stated a claim for religious
discrimination.9

9 Although the complaint suggests that plaintiff was concerned about possible retaliation during
his tenure at Rockwell Collins, the complaint does not set forth a separate cause of action
alleging retaliation. Even if plaintiff were alleging such a claim, it would fail on the merits. “To
state a claim of retaliation under Title VII, a plaintiff must allege (1) that []he engaged in
protected activity, (2) that the employer took a materially adverse action against h[im] and (3)
there is a causal connection between the protected activity and the adverse action.”
Phillips v. Univ. of Maryland Baltimore Ctv.. No. 19-cv-570,2020 WL 1820080, at *11 (D. Md.
Apr. 10,2020) (internal quotation marks and citation omitted). There is no indication in the
complaint that Rockwell Collins took a materially adverse action against plaintiff, nor that there
was any causal relationship between plaintiffs complaints about religious discrimination and
any action that plaintiff characterizes as adverse. In fact, as discussed above, far from retaliating
against plaintiff, Rockwell Collins offered him a job as a regular employee, even after plaintiff
lodged his discrimination complaints with his supervisor.
17

Case l:20-cv-00174-LMB-JFA Document 14 Filed 06/18/20 Page 18 of 18 PagelD# 281

D. Plaintiff* s request to amend his complaint
Plaintiff has asked that if the Court finds his complaint to be inadequate, it allow him to
amend his complaint to include more detail, and has filed a proposed amended complaint
alongside his opposition to the motion to dismiss. Plaintiff proposes to correct a few typos; add a
statement that plaintiff had never seen Rockwell Collins fly another “minority flag”; add
arguments as to why plaintiff believes the email he received from Rockwell Collins’s attorney
was biased; and include a statement that because the flagpole was in a “prominent location,”
Tolle was required to see it when he walked into work and left the building. See [Dkt. No. 9-1].
These amendments do nothing to cure the issues described above; accordingly, plaintiff’s request
to amend his complaint will be denied, and his complaint will be dismissed with prejudice.
IV.
For the foregoing reasons, defendants’ motion to dismiss will be granted, plaintiff’s
complaint will be dismissed, and plaintiff’s request to amend his complaint will be denied by an
order that will be issued alongside this Memorandum Opinion.
Entered this 18 day of June. 2020.
Alexandria, Virginia

/sr
Leonie M. Brinkema
United States District Judge

18

Case l:20-cv-00174-LMB-JFA Document 15 Filed 06/18/20 Page 1 of 1 PagelD# 282

IN THE UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF VIRGINIA
Alexandria Division
JAMES TOLLE,
Plaintiff,
v.

)
)
)
)

)

ROCKWELL COLLINS CONTROL
TECHNOLOGIES, INC., etal,

1:20-cv-174 (LMB/JFA)

)
)
)
)

Defendants.
ORDER
For the reasons stated in the accompanying Memorandum Opinion, defendants’ Motion
to Dismiss [Dkt. No. 5] is GRANTED, plaintiffs request to amend the complaint is DENIED,
and it is hereby
ORDERED that plaintiffs complaint [Dkt No. 1] be and is DISMISSED WITH
PREJUDICE.
To appeal this decision, plaintiff must file a written notice of appeal with the Clerk of the
Court within thirty (30) days of the date of entry of this Order. A notice of appeal is a short
statement indicating a desire to appeal, including the date of the order plaintiff wants to appeal.
Plaintiff need not explain the grounds for appeal until so directed by the court of appeals. Failure
to file a timely notice of appeal waives plaintiffs right to appeal this decision.
The Clerk is directed to enter judgment in favor of defendants] under Fed. R. Civ. P. 58;
forward copies of this Order and accompanying Memorandum Opinion to counsel of record and
plaintiff, pro se: and close this civil action.
Entered this 18 day of June, 2020.
Alexandria, Virginia

Is/
Leonie M. Brinkema
United States District Judge

APPENDIX B
U. S. Court of Appeals for the Fourth Circuit
Unpublished Opinion and Judgment of May 10,2021

Appendix B

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-1768
JAMES TOLLE,
Plaintiff - Appellant,
v.
ROCKWELL COLLINS CONTROL TECHNOLOGIES, INC., d/b/a Rockwell
Collins, Inc., d/b/a United Technologies Corporation; COLLINS AEROSPACE,
d/b/a Rockwell Collins, Inc., d/b/a United Technologies Corporation, d/b/a Rockwell
Collins Control Technologies, Inc.; ROCKWELL COLLINS, INC., d/b/a United
Technologies Corporation; UNITED TECHNOLOGIES CORPORATION,
Defendants - Appellees.

Appeal from the United States District Court for the Eastern District of Virginia, at
Alexandria. Leonie M. Brinkema, District Judge. (l:20-cv-00174-LMB-JFA)
Submitted: April 21,2021

Decided: May 10, 2021

Before KEENAN and THACKER, Circuit Judges, and SHEDD, Senior Circuit Judge.
Affirmed by unpublished per curiam opinion.
James Tolle, Appellant Pro Se. Julie Davis Loring, SEYFARTH SHAW, LLP, Atlanta,
Georgia, for Appellee.
Unpublished opinions are not binding precedent in this circuit.

PER CURIAM:
James Tolle appeals the district court’s order granting Defendants’ Federal Rule of
Civil Procedure 12(b)(6) motion, dismissing his civil action, and denying his request for
leave to amend his complaint. We have reviewed the record and find no reversible error.
Accordingly, we affirm for the reasons stated by the district court. Tolle v. Rockwell
Collins, No. l:20-cv-00174-LMB-JFA (E.D. Va. June 18, 2020). We dispense with oral
argument because the facts and legal contentions are adequately presented in the materials
before this court and argument would not aid the decisional process.
AFFIRMED

2

USCA4 Appeal: 20-1768

Doc: 19-2

Filed: 05/10/2021

Pg: 1 of 1

FILED: May 10, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1768
(1:20-cv-00174-LMB-JFA)
JAMES TOLLE
Plaintiff - Appellant
v.
ROCKWELL COLLINS CONTROL TECHNOLOGIES, INC., d/b/a Rockwell
Collins, Inc., d/b/a United Technologies Corporation; COLLINS AEROSPACE,
d/b/a Rockwell Collins, Inc., d/b/a United Technologies Corporation, d/b/a
Rockwell Collins Control Technologies, Inc.; ROCKWELL COLLINS, INC.,
d/b/a United Technologies Corporation; UNITED TECHNOLOGIES
CORPORATION
Defendants - Appellees

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
is/ PATRICIA S. CONNOR. CLERK

APPENDIX C
Excerpts from Plaintiff’s Complaint of February 19,2020

Appendix C

8T»» *rr>

UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
ALEXANDRIA DIVISION

wp

!: \2

Civil Action No, l ‘ Z O

JAMES TOLLE,

/ *7

Plaintiff,
COMPLAINT

v,

ROCKWELL COLLINS CONTROL TECHNOLOGIES, INC., COLLINS AEROSPACE /d/b/a
Rockwell Collins Control Technologies, Inc., ROCKWELL COLLINS CONTROL
TECHNOLOGIES, INC. d/b/a Rockwell Collins, Inc., ROCKWELL COLLINS, INC.,
COLLINS AEROSPACE d/b/a Rockwell Collins, Inc., ROCKWELL COLLINS CONTROL
TECHNOLOGIES, INC. /d/b/a United Technologies Corporation, ROCKWELL COLLINS,
INC. /d/b/a United Technologies Corporation, COLLINS AEROSPACE /d/b/a United
Technologies Corporation, and UNITED TECHNOLOGIES CORPORATION
Defendants.
Plaintiff James Tolle (hereinafter “Tolle” or “Plaintiff”), pro se for his Complaint against
Defendants Rockwell Collins Control Technologies, Inc., Collins Aerospace /d/b/a Rockwell
. Collins Control Technologies, Inc., Rockwell Collins Control Technologies, Inc. /d/b/a Rockwell
Collins, Inc., Rockwell Collins, Inc., Collins Aerospace /d/b/a Rockwell Collins, Inc., Rockwell
Collins Control Technologies, Inc. /d/b/a United Technologies Corporation, Rockwell Collins,
Inc. /d/b/a United Technologies Corporation, Collins Aerospace /d/b/a United Technologies
Corporation, and United Technologies Corporation (hereinafter “Rockwell Collins” or
"Defendants” individually and together), alleges as follows:
NATURE OF CLAIMS
1.

This is an action for damages brought pursuant to the Civil Rights Act of 1964, as

amended, (hereinafter, the “Civil Rights Act”), 42 U.S.C. §§ 2000e et seq.
2.

Defendants Rockwell Collins unlawfully discriminated against Tolle and/or

subjected him to an unfair and hostile work environment by forcing Tolle to endure offensive
1

.conduct or.object .which was serious and pervasive enough for a reasonable person to find it to be
intimidating, hostile or an interference to work based on his religious beliefs and practices.
3.

Defendants Rockwell Collins unlawfully discriminated against Tolle by forcing

Tolle to endure unwelcome and offensive conduct or object based on Tolle’s religious beliefs as a
condition of continued employment and this led to Tolle’s constructive discharge from the
company.
4.

Defendants Rockwell Collins unlawfully discriminated against Tolle based on

religion because Rockwell Collins failed to offer Tolle any accommodation of his religious
practices following Tolle’s complaints about the offensive conduct or object, refusing to offer
Tolle any reasonable accommodation which would allow him to continue working without being
exposed to a religiously offensive object while there was no undue hardship for the company.
5.

Defendants Rockwell Collins unlawfully discriminated against Tolle and/or

subjected him to an unfair and hostile work environment by causing Tolle to believe that Tolle
had to alter or abandon his religious practice in order to continue working at the company and
tins led to Tolle’s constructive discharge from the company.
6.

Defendants Rockwell Collins unlawfully discriminated against Tolle and/or

subjected him to an unfair and hostile work environment during hiring by causing Tolle to
believe that Tolle had to alter or abandon his religious practice in order to continue working at
die company and this led to Tolle not being able to accept Rockwell Collins’ offer of
employment.
7.

Defendants Rockwell Collins unlawfully discriminated against Tolle based on

religion by using an employment practice not essential to the business which is unwelcoming to
Christians and has a disparate impact on Christians who work at or apply to the company.
8.

Defendants Rockwell Collins willfully and repeatedly violated the Civil Rights
2

regular employee by Rockwell Collins.
27.

In or around August 2018, Tolle applied for a position at Rockwell Collins for the

RCCT in Sterling, Virginia.
28.

On or around September 3, 2019, Tolle informed Rockwell Collins that he could

not accept the position due to the continuing discriminatory policies of Rockwell Collins and
because he would have to abandon or alter his religious practice in order to continue working in
any role at Rockwell Collins.
29.

Due to the discriminatory policies and practices of Rockwell Collins, Tolle could

not continue working at Rockwell Collins and left his work at Rockwell Collins in or around
October 2019 after a constructive discharge.
Discriminatory Conduct of Rockwell Collins
30.

In or around June 2019, Rockwell Collins executed its policy to display a symbol

of the Gay Pride movement on its flag pole over all or almost all of its locations for 30 days,
which included the Sterling location of Rockwell Collins where Tolle had worked continuously
from on or around February, 2018, to on or around May, 2018, and again from on or around
November, 2018, to on or around October, 2019. Tolle, who had worked for approximately 20
years with the aerospace and defense industries, had never seen the Gay Pride flag flown in this
manner at any other company in the past. Tolle had never seen the Gay Pride flag flown at
Rockwell Collins locations before, including at the two locations where he had worked in
Warrenton or in Sterling.
31.

On or around June 15, 2019, Tolle met with his supervisor Amine Mechiche-

Alami to complain that Tolle found the display of the Gay Pride flag at the Sterling location
unwelcome and offensive because of his religious belief and practices. Tolle told MechicheAlami words to the effect that the display of this offensive object over the work location for 30
8

days was so pervasive and offensive due to his religious reasons that it created an unwelcome,
hostile environment which interfered with his work at that location. He told Mechiche-Alami
that continuing to work at a location that flew a Gay Pride flag was contrary to his religious
practice, which did not allow him to participate in any activity which publicly associated him
with the Gay Pride movement. Tolle told Mechiche-Alami that he would prefer to be able to
work offsite or at another location where this offensive object was not being displayed as an
accommodation of his religious beliefs during this meeting.
32.

On or around June 27, 2019, Tolle followed up his discussion with an e-mail to

Mechiche-Alami that stated: “...I will probably go home to work offsite as I still don’t feel
comfortable working under a flag which I find offensive for religious reasons.” Tolle sent this email to underscore how unwelcome the display of the offensive object was and how it was
interfering with his work at the site.
33.

Tolle received no indication of action by Mechiche-Alami to address his

complaints in or around June 2019 and received no response to his request for accommodation
from Mechiche-Alami.

On or around July 9, 2019, Tolle met with an RTTC engineering

manager, Eric Brewer, to report that Tolle found the flying of the Gay Pride flag offensive due to
religious reasons and that if it was the policy for Rockwell Collins to fly this every year, this
would create an offensive or hostile work environment under which Tolle could not continue to
work. Tolle also asked Brewer if it would be possible to find out if the Gay Pride flag which was
offensive to Tolle due to religious beliefs and practice would be flown at every location in the
company or if it would be possible to find a location where he could work as an accommodation
of his religious beliefs and practices. Brewer told Tolle he would look into the matter and on or
around July 9, 2019, Brewer sent Tolle an e-mail contact for the Human Resources representative
who may be able to answer Tolle’s questions.
9

34.

.On or around July 17, 2019, Tolle forwarded his complaint of the unfair and

hostile work place caused by the display of the Gay Pride flag to the Human Resources
representative Julie Jones (hereinafter, the “Human Resources representative”). Tolle’s e-mail on
or around July 17, 2019 stated his concerns about the unfair and hostile work place which the
Rockwell Collins’ discriminatory practices caused as follows:
a) “I view this flag as something which is not neutral, but something which promotes
one minority’s viewpoint about pride in homosexual lifestyles and treats other minority
viewpoint’s [sic.] who don’t agree with them as bigots.”
b) “For the almost 3 years I have worked with Rockwell Collins, I have never seen
another minority flag flown over the company except this one [Gay Pride flag].”
c) “...as someone who has religious convictions which do not make me proud of
Homosexuality or support the Gay Pride agenda, I was very disappointed to see...[Rockwell
Collins]...promoting this flag and signaling that people with religious convictions like mine need
not apply.”
d) “The concerns I have about applying for a job with...[Rockwell Collins]...is whether
the public display of the Gay Pride flag by the company means that...[Rockwell Collins]...is not
welcoming to people who do not share the agenda that the flag undeniably represents.”
e) “If I am employed by...[Rockwell Collins]...will I be required to support the flying of
die Gay Pride flag every year and support the agenda it represents?”
f) “If I say something as an employee which does not support the flying of the Gay
Pride flag...will I face discipline or other adverse actions by management?”
g) “Without any more information, I am left with the feeling that...[Rockwell
Collins]...is not a place where a Christian who does not support Gay Pride should work.”
35.

Tolle’s e-mail on or around July 17, 2019, also repeated his request for an
10

__ accommodation of his religious beliefs and practices by finding another location where he could
work without being exposed to the offensive object: “If the company is committed to flying the
Gay Pride flag eveiy year, are there locations within the company which will not have to work
under this flag?”
36.

Tolle’s e-mail on or around July 17, 2019, makes it clear to Rockwell Collins

management representatives that the display of the object which he finds offensive due to
religious reasons is not only unwelcome to him, but he also raises the question that the company
policy appears to create a preference which is not welcoming of anyone who finds the display of
that object offensive for religious reasons: "The concerns I have about applying for a job with...
[Rockwell Collins]...is whether the public display of the Gay Pride flag by the company means
that...[Rockwell Collins]...is not welcoming to people who do not share the agenda that the flag
undeniably represents.”
37.

Tolle’s e-mail on or around July 17, 2019, also indicates that the unwelcome and

hostile work environment caused by the display of the Gay Pride flag was creating an
environment where a person with Tolle’s religious beliefs could not continue to work: “...I am
left with the feeling that...[Rockwell Collins]...is not a place where a Christian who does not
support Gay Pride should work.”
38.

Tolle’s e-mail on or around July 17, 2019, demonstrates Tolle’s effort to take

advantage of Rockwell Collins’ Human Resources channels to obtain preventive or corrective
action to redress the harassing behavior, or to obtain a reasonable accommodation of his religious
beliefs and practices which were impacted by Rockwell Collins’ discriminatory behavior or the
offensive conduct or object.
39.

On or around July 18, 2019, the Human Resources representative for Rockwell

Collins sent Tolle an e-mail response to his complaint and questions. The Human Resources
11

response confirmed that ail locations flew the Gay Pride flag: “I can tell you at legacy...
[Rockwell Collins], to my knowledge all the locations that have flagpoles flew the flag.” The
Human Resources response could not confirm whether it would be done 30 days of every year,
but the Human Resources response did not offer Tolle any accommodation based on his religious
belief or practice at another location as Tolle had requested or any other reasonable
accommodation.
40.

On or around July 18, 2019, the Human Resources representative gave Tolle a

copy of the United Technologies Corporation “Rainbow Flag FAQ’s” document (hereinafter
“UTC FAQ document”). This document included the following:
a) The UTC FAQ document stated that the flag “reaffirms [Rockwell Collins]...
commitment to attracting and engaging talented people....”
b) The UTC FAQ document appeared to be promulgated in or around 2018, stating
“This year, we are proud to celebrate and recognize the beginning of PRIDE month by
displaying the flag during the first week and will evaluate whether that timeline is the right
timeline for the next year before June 2019.”
c) Not all locations of UTC or Rockwell Collins were designated to fly the Gay Pride
flag in or around 2018: “The flag will fly at P&W and Collins HQ for the first week in June, and
for the entire month of June at UTC HQ in Farmington, CT.”
d) The actions of Rockwell Collins to fly the Gay Pride flag at all locations and for 30
days starting in or around 2019 was a marked departure from past practices and even from those
in or around 2018 according to the UTC FAQ document.
e) According to the UTC FAQ document, the only other minority flag flown was the
Prisoner of War (POW) flag, which is only flown at a single location on isolated days during the
year. According to the UTC FAQ document, no other minority was permitted to fly a flag at that
12

time.
f) The UTC FAQ document made it clear that it was company policy to favor the Gay
Pride movement by stating:

“The company leadership is fully supportive of the effort to

recognize PRIDE month as we believe it reflects many of our company’s values..Noteworthy
is that the document did not make any attempt to express such wholehearted support for any
other minority.
41.

The Rockwell Collins’ Human Resources response on or around July 18, 2019,

responded to his question about potential retaliation based on his religious objection to the Gay
Pride flag with the threat that Tolle’s language could be considered bigoted and justify
retaliation:

“If you use derogatory language to refer to someone due to their...sexual

orientation...that is not tolerated.”
42.

The Rockwell Collins Human Resources response on or around July 18, 2019,

contained no offer of accommodation of Tolle’s religious belief or practice and made no claim
that an accommodation of Tolle’s religious belief or practice would create an undue hardship for
Rockwell Collins.
43.

The Rockwell Collins Human Resources response on or around July 18, 2019,

contained no language demonstrating that Rockwell Collins had exercised or would exercise
reasonable care to prevent and promptly correct any of the harassing behavior.
44.

On or around July 18, 2019, Tolle responded to the Human Resources

representative by e-mail, including his continuing concerns about the unfair and hostile work
place caused by the Rockwell Collins actions and policies regarding display of the Gay Pride
flag. Specifically, Tolle’s e-mail response stated:
a) “The other concern I have is in how the response I received to my concerns about
retaliation have really only underscored my concerns....The response I received to my question
13

about whether I would face any such adverse treatment if I voiced my opposition to the Gay
Pride movement seemed to automatically assume that my opposition would be derogatory
towards homosexuals. This first response underscores my concerns that a person who shares my
religious convictions and opinions which do not support the Gay Pride agenda will normally be
treated as a homophobe or bigot within the company.”
b) “For these reasons, I am still concerned that...[Rockwell Collins]...is a workplace
which will not welcome people with my religious beliefs....Without any further information, I
will continue to consider...[Rockwell Collins]...as a place where Christians are not as welcome as
others....”
45.

On or around July 23, 2019, the Rockwell Collins legal Counsel’s office

responded to Tolle’s complaints and questions through an e-mail from Rockwell Collins’
Attorney Michael Wade (hereinafter, “Wade’s e-mail”). Wade’s e-mail response did not address
the details of Tolle’s complaint of an unfair and hostile work place based on religious
discrimination and Wade’s e-mail did not offer Tolle any accommodation for his religious belief
or practice as Tolle had requested. It is noteworthy that Wade’s e-mail made no claim that an
accommodation of Tolle’s religious belief or practice would create an undue hardship for
Rockwell Collins.
46.

Wade’s e-mail did respond to Tolle’s concern that Rockwell Collins’ response to

Tolle’s complaints were threatening retaliation by repeating the similarly threatening language:
"Thus, while individuals who work for...[Rockwell Collins]...are free to their own personal,
political, or religious views, doctrine, membership, etc., we expect employees to take care to
communicate with co-workers in a respectful, professional, and non-discriminatoiy or harassing
manner....Any employee who treats another in a way that contradicts this expectation will
subject him or herself to discipline, up to and including termination.”
14

47.

.Rockwell Collins’ Attorney Wade’s e-mail on or around July 23, 2019, contained

no language demonstrating that Rockwell Collins had exercised or would exercise reasonable
care to prevent and promptly correct any of the harassing behavior. Wade’s e-mail did indicate
that Rockwell Collins would not be willing to exercise any reasonable care to prevent or correct
any harassment caused by the flying of the Gay Pride flag in the future by expressing the
company’s past commitment to this action with the following statement: “We were recently
proud to support employees who are members of the LGBTQ+ community during Pride Month”.
48.

Wade’s e-mail included language which reflected a bias in Rockwell Collins

policies which was markedly in favor of Gay Pride while unwilling to show public support for
any other minority point of view, adding the following statement after Wade’s glowing comments
about the LGBTQ+ community: “...the Company does not sponsor or support any particular
religious or political viewpoint, practice or membership to the exclusion of others”.
49.

On or around August 1, 2019, Mechiche-Alami told Tolle to contact engineering

manager Jay Dabhade concerning an offer to become a regular employee for Rockwell Collins.
Dabhade told Tolle on or around August 2, 2019, that Rockwell Collins wanted Tolle to join the
RCCT team as a regular employee and by an e-mail on or around August 2, 2019, Dabhade told
Tolle that he could apply for a position after Dabhade opened a software engineering requisition.
50.

On or around August 21, 2019, Tolle was able to apply to the Rockwell Collins

online job announcement for the software engineering position with RCCT as a regular
employee. On or around August 29, 2019, the Rockwell Collins recruiter sent Tolle an offer letter
by e-mail.
51.

The offer letter on or around August 29, 2019, contained no information which

would address Tolle’s complaints of an unfair and hostile work environment caused by Rockwell
Collins actions and policies regarding the display of an object which Tolle found offensive based
15

.on.Ms.religious.belief or practice. Specifically, the offer letter contained no offer to address
Tolle’s complaints or to offer Tolle any accommodation of Ms religi°us belief or practices, nor
did it claim that an accommodation of Tolle’s religious belief or practice would create an undue
hardship on Rockwell Collins. Furthermore, the offer letter on or around August 29, 2019,
contained no language to indicate that Rockwell Collins had exercised or would be willing to
exercise reasonable care to prevent and promptly correct any harassing behavior caused by their
actions or offensive conduct or object.
52.

On or around September 3, 2019, Tolle informed Rockwell Collins that he

"cannot continue” working at Rockwell Collins and told Rockwell Collins management that he
had to turn down the offer of employment for the following reasons:
a) “For a whole month of the current year, Collins Aerospace management chose to fly a
flag over our location wMch, to me, is an offensive object wMch represents a social movement
that has been known for retaliatory and discriminatory practices against Christians who hold my
religious convictions. With the many examples of tMs over the past years, I believe that flying
the Gay Pride flag over the company will be enough so that a reasonable person would consider
such a pervasive action to create an intimidating or hostile workplace for persons like me.”
b) “Additionally, my religious practices do not allow me to work under a Gay Pride flag
and for me to continue working as an employee at Collins, it would require me to change my
religious practices and to endure the display of an offensive object as a condition of my
employment.”
c) “I raised my concerns with management and HR representatives, requesting both
clarification of the policy and accommodation of my religious practices. Unfortunately, the
responses I received from HR and the legal counsel failed to offer any accommodation of my
religious practices, at any location in the company.”
16

____ d). Tolle aLso raised his concerns about threats in response to the raising of his concern
about retaliation: “Unfortunately, the responses I received from HR and the legal counsel...even
contributed to some of my concerns.”
53.

Tolle’s e-mail on or around September 3, 2019, demonstrates that the past

harassing behavior at Rockwell Collins and prospect of continuing harassing behavior by flying
an object Tolle found offensive due to religious reasons over all locations of the company for 30
days every year in the future was sufficiently severe or pervasive to alter the condition of Tolle’s
employment. Tolle made it clear in his e-mail on or around September 3, 2019, that the abusive
working environment due to this harassment had become so intolerable at the time or that the
prospect of harassment in the future had become so intolerable that Tolle believed his resignation
was his only option for getting relief from the harassment and Tolle’s only fitting response.
54.

On or around September 17, 2019, Tolle gave notice to his Rockwell Collins’

project lead and Mr. Amine Mechiche-Alami, his supervisor, that his last day of work at
Rockwell Collins would be October 4, 2019.
55.

On or around October 4, 2019, Tolle stopped working at Rockwell Collins

because of a constructive discharge caused by the following:
a) Unwelcome conduct and/or display of offensive object which was severe and/or
pervasive enough to create a work environment that a reasonable person would consider
intimidating and/or hostile and/or interfered with Tolle’s work based on his religious belief and
practice.
b) Discriminatoiy, unfair and/or hostile work place and/or hiring practices which caused
Tolle to believe that Tolle had to abandon or alter his religious belief or practice in order to
continue working at the company.
c) Discrimination against Tolle based on religion because Rockwell Collins failed to
17

offer Tolle any accommodation of his religious belief or practice which prevented him from
continuing to work at the company.
d) Threats of retaliation in response to Tolle’s complaints about being threatened with
retaliation after complaining about an intimidating or hostile work place due to discrimination
based on his religious belief or practice.
56.

On or around September 28, 2019, Tolle sent a letter by certified U. S. Mail to the

U. S. Equal Employment Opportunity Commission (hereinafter “EEOC”), which reported the
discriminatory policy and actions against him by Rockwell Collins, doing business as Collins
Aerospace, located at 22640 Davis Drive, Sterling, VA 20164, as follows:
57.

On or around November 16, 2019, Tolle filed a complaint of formed charges

(EEOC Form 5) by certified U. S. Mail with the EEOC, which reported discriminatory policies
and actions by Rockwell Collins against Tolle as follows:
a) “[Rockwell Collins]...management forced me to endure offensive conduct or object
which was serious and pervasive enough for a reasonable person to find it to be intimidating,
hostile or an interference to work for me due to my religious beliefs and practices.”
b) “[Rockwell Collins]...management's response to my complaints about the offensive
conduct or object included threats of retaliation against me which were unnecessary,
inappropriate and violated my rights under the law.”
c) “[Rockwell Collins]...management's actions caused me to believe that I had to
abandon or adjust my religious beliefs or practice in order to continue working at the company
and this led to my constructive discharge from the company.”
d) “[Rockwell Coilins]...management's discriminatory actions against Christians who do
not support the Gay Pride flag or its movement due to religious reasons creates an environment
which is unwelcoming to Christians and has a disparate impact on Christians who work at or
18

apply to the company.”
58.

On or around December 4, 2019, the EEOC sent Tolle a response to Tolle’s

charges which stated: “Based upon its investigation, the EEOC is unable to conclude that the
information obtained establishes violations of the statutes.

This does not certify that the

respondent is in compliance with the statutes. No finding is made as to any other issues that
might be construed as having been raised by this charge.”
59.

On or around December 4, 2019, the EEOC letter notification to Tolle stated

"This information relates to filing suit in Federal..court....In order to pursue this matter further,
you must file a lawsuit against the respondents) named in the charge within 90 days of the date
you receive this Notice.” (See Exhibit A.)
60.

On or around January 9, 2020, Tolle corrected his complaint to clarify his status

as a statutory employee and provided the amended complaint to the EEOC.
61.

On or around February 11, 2020, the EEOC informed Tolle that his amended

complaint would be used to request reconsideration of Tolle’s complaint by the EEOC. (See
Exhibit B.)
62.

On or around February 13, 2020, the EEOC informed Tolle that they had

reviewed his amended complaint and had decided not to change its finding of December, 2019.

CAUSES OF ACTION
AS AND FOR A FIRST CAUSE OF ACTTON
63.

Tolle re-alleges and incorporates the above allegations of this complaint as if set

forth fully herein.
64.

The Civil Rights Act under 42 U.S.C. § 20G0e-2(a)(l) prohibits discrimination

against any individual with respect to his conditions or privileges of employment, because of
19

.to.fly. the.Gay,Pride.flag for a whole month over all of its locations without any accommodation
of those with religious objections was a marked departure from its past actions while Tolle was
employed there and is quite different than what is found in the rest of the aerospace industry.
This is substantiated by the facts, including but not limited to the following:
a) The UTC FAQ document on the company policy of flying the Gay Pride flag
indicated that this was a new and marked departure from past practices even for UTC and
Rockwell Collins;
b) Tolle, who had worked for approximately 20 years with the aerospace and defense
industries, had never seen the Gay Pride flag flown in this manner at any other company in the
past;
c) Tolle had never seen the Gay Pride flag flown at Rockwell Collins locations before,
including at the two locations where he had worked in Warrenton or in Sterling.
69.

Upon information and belief, Rockwell Collins flying of the Gay Pride flag, an

object which Tolle found offensive due to religious reasons, for 30 days in or around June, 2019,
at all locations of the company was sufficiently severe and pervasive enough to create a work
environment which a reasonable person would consider intimidating, hostile or abusive. This is
substantiated by the facts, including but not limited to the following:
a) Tolle told his supervisor Mechiche-Alami that he found the Gay Pride flag offensive,
including in his e-mail on or around June 27, 2019: “...I will probably go home to work offsite as
I still don’t feel comfortable working under a flag which I find offensive for religious reasons”;
b) The UTC FAQ document on the company policy of flying the Gay Pride flag
indicated that this was a new and marked departure from past practices even for UTC and
Rockwell Collins;
c) Tolle had never seen the Gay Pride flag flown at Rockwell Collins locations before,
21

„including at the two locations where he had worked in Warrenton or in Sterling.
d) Tolle’s communication with management on or around June 27, 2019, showed that he
found the work environment which displayed this offensive symbol as intimidating, hostile or
abusive and interfering with his work: “...I will probably go home to work offsite as I still don’t
feel comfortable working under a flag which I find offensive for religious reasons.”
e) Tolle’s e-mail on or around September 3, 2019, stated that Tolle believed that the
offensive conduct or object displayed by Rockwell Collins created a hostile workplace: “...I
believe that flying the Gay Pride flag over the company will be enough so that a reasonable
person would consider such a pervasive action to create an intimidating or hostile workplace for
persons like me.”
70.

Upon information and belief, Rockwell Collins’ communications with Tolle failed

to indicate that the company would be willing to exercise any reasonable care to prevent or
promptly correct any harassing action in the future or rule out the possibility that the company
would continue the actions or flying of the object which Tolle found offensive due to religious
reasons in the future so that there was no reason for Tolle to believe that the harassing
environment would end. Upon information and belief, the flying of the Gay Pride flag as a
symbol of the company's support of the Gay Pride movement for many days in 2019 and the
likelihood that the company policy which promoted this conduct or action will not change for
any year in the future created an action by the company which was severe and pervasive to create
a work environment that a reasonable person would consider intimidating, hostile or abusive.
This is substantiated by the facts, including but not limited to the following:
a) None of Tolle’s managers told him that the display of the offensive conduct or object
would be corrected or not repeated in the future;
b) None of Rockwell Collins’ responses to Tolle’s complaints about the flying of the
22

Gay Pride flag said that this action would be corrected or not repeated in the future;
c) The statement by Rockwell Collins’ Attorney Wade showed no regret or interest in
making any corrections to the company’s actions and expressed pride in the past action so that it
was probable that Rockwell Collins would continue the actions or flying of the object which
Tolle found offensive due to religious reasons in the future.: “We were recently proud to support
employees who are members of the LGBTQ+ community during Pride Month”.
d) Tolle’s e-mail communications with Rockwell Collins on or around September 3,
2019, showed that the Rockwell Collins responses did not offer any prospect of change in the
company’s actions or policy in the future: “Unfortunately, the responses I received from HR and
the legal counsel failed to offer any accommodation of my religious practices, at any location in
the company.”
e) Tolle’s e-mail communications with Rockwell Collins on or around September 3,
2019, showed that he believed that the continuing actions and policies at Rockwell Collins
created an intimidating, hostile or abusive work environment based on his religious belief or
practice: “...I believe that flying the Gay Pride flag over the company will be enough so that a
reasonable person would consider such a pervasive action to create an intimidating or hostile
workplace for persons like me.”
71.

Upon information and belief, the Rockwell Collins display of the Gay Pride flag

was expanded in a radical way in 2019 which was considerably more severe and pervasive, so
that every location of Rockwell Collins displayed the object which Tolle found offensive due to
religious beliefs. Upon information and belief, by taking the radical step to increase the number
of days that the Gay Pride flag would be displayed and the number of locations such that the flag
would be displayed at every location of the company, the conduct or action of the company
became so severe and pervasive to create a work environment that a reasonable person would
23

consider intimidating, hostile or abusive. This is substantiated by the facts, including but not
limited to the following:
a) The UTC FAQ document on the company policy of flying the Gay Pride flag
indicated that this was a new and marked departure from past practices even for UTC and
Rockwell Collins;
b) The Human Resources response on or around July 18, 2019, confirmed that the Gay
Pride flag was being flown at every Rockwell Collins location: “I can tell you at legacy...
[Rockwell Collins], to my knowledge all the locations that have flagpoles flew the flag.”
c) The display of this object at every location made it impossible for someone who
found the object intimidating or offensive to continue to work at Rockwell Collins without being
exposed to the object.
d) Tolle’s communication with management on or around June 27, 2019, showed that he
found the work environment which displayed this offensive symbol as intimidating, hostile or
abusive and interfering with his work: “...I will probably go home to work offsite as I still don’t
feel comfortable working under a flag which I find offensive for religious reasons.”
e) Tolle’s e-mail communications with Rockwell Collins on or around September 3,
2019, which followed Rockwell Collins’ responses to his complaints showed that he believed
that the continuing actions and policies at Rockwell Collins created an intimidating, hostile or
abusive work environment based on his religious belief or practice: “...I believe that flying the
Gay Pride flag over the company will be enough so that a reasonable person would consider such
a pervasive action to create an intimidating or hostile workplace for persons like me.”
72.

Upon information and belief, Tolle’s communications with Rockwell Collins

management made it clear that the display of the Gay Pride flag was conduct which he found
unwelcome in the work place. Tolle told management that he supported policies which were
24

—— —neutral to homosexuals in the work place. Upon information and belief, Tolle made it clear that
the preference of the company to display the Gay Pride flag was not a neutral policy and made
the work place unwelcoming to persons like Tolle who found this object offensive due to their
religious beliefs. This is substantiated by the facts, including but not limited to the following:
a) Tolle reported to his supervisor Mechiche-Alami and Brewer that he found the flying
of the Gay Pride flag unwelcome based on his religious belief and practice;
b) Tolle’s e-mail to his supervisor on or around June 27, 2019, showed that the actions
by Rockwell Collins was unwelcome and interfering with his work: “...I will probably go home
to work offsite as I still don’t feel comfortable working under a flag which I find offensive for
religious reasons.”
c) Tolle’s complaints to his supervisors and in his subsequent e-mail on or around July
17, 2019, stated that he found Rockwell Collins’ actions biased and non-neutral: "I view this
flag as something which is not neutral, but something which promotes one minority’s viewpoint
about pride in homosexual lifestyles and treats other minority viewpoint’s [sic.] who don’t agree
with them as bigots.”
73.

Upon information and belief, Tolle’s communication with Rockwell Collins

management and their representatives made it clear that he did not support the Gay Pride flag or
the Gay Pride movement due to his religious beliefs and practice. Upon information and belief,
although Tolle made it known to the company that Tolle could support their equal opportunity
policies which are neutral to sexual orientation in the work place, Tolle complained to
management that the severe and pervasive nature of displaying the non-neutral symbol of the
Gay Pride flag was offensive based on Tolle’s religious beliefs and practice and such conduct
created an intimidating and/or hostile work environment where it would be difficult for Tolle to
continue to work. This is substantiated by the facts, including but not limited to the following:
25

__

a) Tolle reported to his supervisor Mechiche-Alami and Brewer that he found the flying

of the Gay Pride flag unwelcome based on his religious belief and practice;
b) Tolle’s e-mail to his supervisor on or around June 27, 2019, showed that the actions
by Rockwell Collins was unwelcome and interfering with his work: “...I will probably go home
to work offsite as I still don’t feel comfortable working under a flag which I find offensive for
religious reasons.”
c) Tolle’s complaints to his supervisors and in his subsequent e-mail on or around July
17, 2019, stated that he found Rockwell Collins’ actions biased and non-neutral: “I view this
flag as something which is not neutral, but something which promotes one minority’s viewpoint
about pride in homosexual lifestyles and treats other minority viewpoint’s [sic.] who don’t agree
with them as bigots.”
d) Tolle’s e-mail on or around September 3, 2019 reported to Rockwell Collins
management that he could not work at Rockwell Collins due to the continuing policy and actions
of Rockwell Collins which Tolle found biased, non-neutral and offensive due to religious
reasons: “For a whole month of the current year, Collins Aerospace management chose to fly a
flag over our location which, to me, is an offensive object which represents a social movement
that has been known for retaliatory and discriminatory practices against Christians who hold my
religious convictions. With the many examples of this over the past years, I believe that flying
the Gay Pride flag over the company will be enough so that a reasonable person would consider
such a pervasive action to create an intimidating or hostile workplace for persons like me.”
74.

Upon information and belief, Tolle has a long-held view based on his Catholic

religion that does not support the promotion of Gay Pride or the homosexual lifestyle. Upon
information and belief, Tolle’s activities in his Church and outside of work based on these beliefs
reflect a sincere religious belief which leads him to view the actions of Rockwell Collins as
26

.promotion, of .something .which.is .offensive to Tolle’s religious beliefs and practices. This is
substantiated by the facts, including but not limited to the following:
a) Tolle is a practicing Catholic who regularly participates in services at the Holy Trinity
parish in Gainesville, Virginia;
b) Tolle indicated to his supervisor Mechiche-Alami and Brewer that he found the flying
of the Gay Pride flag offensive based on his religious belief and practice;
c) Tolle’s e-mail to his supervisor on or around June 27, 2019, showed that the actions
by Rockwell Collins was offensive based on his religious belief or practice: “...I will probably
go home to work offsite as I still don’t feel comfortable working under a flag which I find
offensive for religious reasons.”
d) Tolle’s e-mail on or around July 17, 2019, shows he does not support the promotion
of Gay Pride based on his religious belief or practice:

“...as someone who has religious

convictions which do not make me proud of Homosexuality or support the Gay Pride agenda__”
75.

Upon information and belief, there is considerable evidence from history that the

Gay Pride movement is not a non-violent movement committed to peace and that the Gay Pride
flag is not a symbol of peace.5 Upon information and belief, in recent years, there are ample
5

Famous examples of discrimination by the Gay pride community against persons in the work
place who do not support the Gay pride movement include Jaelene Hinkle
(https://www.washingtontimes.com/news/2019/jul/10/jaelene-hinkles-world-cup-snubsparks-debate/), Patricia Jannuzzi
(https://www.mycentraljersey.com/story/news/local/somerset-county/2015/04/10/patriciajannuzzi-gets-job-back-immaculata-high-school/25587809/); Fr. Mark Morris
(https://www.intoleranceagainstchristians.eu/index.php?id=12&case=2512); Brendan Eich
(https://www.reuters.com/article/us-mozilla-ceo-resignation/mozilla-ceo-resigns-oppositionto-gay-marriage-drew-fre-idUSBREA321Y320140403); and Adolfo Martinez
(https://desmoinesregiter.com/stoiy/news/crime-and-courts/2019/12/19/lgbtq-flag-bumingiowa-man-sentenced-church-banner-fire/2697139001/). According to Chuck Fimandri, chief
counsel to the Freedom of Conscience Defense Fund, many Christians who oppose the Gay
pride movement have been targeted in the workplace: “They have a mortgage to pay and kids
to feed, so they give in and shut up,” Fimandri said. “Others quit and try to get another job.
Or they get fired and end up on social services. There are thousands and thousands of them
across the country. They have said something or donated to something or declined to say
27

examples of how the Gay Pride movement has led to retaliation and discrimination against
people who hold Tolle's religious convictions and the Gay Pride flag has become a symbol of the
movement and this discriminatory behavior towards Christians to many people.6 For these
reasons, Tolle views the display of the Gay Pride flag by Rockwell Collins management as
offensive to Tolle's religious beliefs, but also is a symbol which represents a movement that is
discriminatory and hateful to Christians like Tolle.

Upon information and belief, even if

Rockwell Collins management does not explicitly approve of the discriminatory practices of the
Gay Pride movement against Christians, the display of the symbol of this movement concerned
Tolle greatly because it serves to give tacit approval to all of the discrimination and abuse of
Christians who do not support Gay Pride due to religious convictions.

In addition to die

examples and evidence provided in the footnotes, this is further substantiated by the facts,
including but not limited to the following:
a) Tolle’s e-mail complaint on or around July 17, 2019, stated his concerns about the
discriminatory agenda which the Gay Pride flag represents: “The concerns I have about applying
for a job with...[Rockwell Collins]...is whether the public display of the Gay Pride flag by the
company means that...[Rockwell Collins]...is not welcoming to people who do not share the
agenda that the flag undeniably represents.”
b) Tolle’s e-mail on or around September 3, 2019 shows that the Gay Pride flag was a
symbol which contributed to a intimidating or hostile workplace:

“For a whole month of the

something positive about same-sex ‘marriage’ and have become pariahs in their places of
employment.” (quoted in the National Catholic Register, "It’s Not a Gay Old Time for Those
Who Support Traditional Marriage", April 7, 2015)
6 Gilbert Baker's own comments about the creation of the Gay pride flag was about power and
a revolution, which shows the intent from the very beginning was not to create an symbol of
peace and inclusion: "As a community, both local and international, gay people were in the
midst of an upheaval, a batde for equal rights, a shift in status where we were now
demanding power, taking it. This was our new revolution: a tribal, individualistic, and
collective vision. It deserved a new symbol." (excerpts from Gilbert Baker's memoir at
https://gilbertbaker.com/rainbow-flag-origin-story/)
28

current year, Collins Aerospace management chose to fly a flag over our location which, to me,
is an offensive object which represents a social movement that has been known for retaliatory
and discriminatoiy practices against Christians who hold my religious convictions. With the
many examples of this over the past years, I believe that flying the Gay Pride flag over the
company will be enough so that a reasonable person would consider such a pervasive action to
create an intimidating or hostile workplace for persons like me.”
76.

Upon information and belief, it is noteworthy that when Tolle raised Tolle's

concerns about the symbol of discrimination that the Gay Pride flag represented and that Tolle
viewed it as a sign that Catholics are not welcome at Rockwell Collins, Rockwell Collins
management made no attempt to condemn or disavow the use of the Gay Pride flag to promote
discrimination against Christians or to create an unwelcome environment for Christians which
Tolle noted as one of his concerns in his complaints. This is substantiated by the facts, including
but not limited to the following:
a) Tolle’s e-mail on or around July 17, 2019, stated that the Gay Pride flag is a non­
neutral symbol promoting unequal treatment: “I view this flag as something which is not neutral,
but something which promotes one minority’s viewpoint about pride in homosexual lifestyles
and treats other minority viewpoint’s [sic.] who don’t agree with them as bigots.”
b) Tolle’s e-mail complaint on or around July 17, 2019, stated his concerns about the
discriminatory agenda which the Gay Pride flag represents: ‘The concerns I have about applying
for a job with...[Rockwell Collins]...is whether the public display of the Gay Pride flag by the
company means that...[Rockwell Collins]...is not welcoming to people who do not share the
agenda that die flag undeniably represents.”
c) Although Wade’s e-mail states that Rockwell Collins’ support of Gay Pride are
intended to demonstrate a desire to create “a welcoming, safe and respectful environment for all
29

to 42 U.S.C. § 1981a(a)(l).
84.

Tolle requests award of attorney’s fees pursuant to 42 U.S.C. § 2000e-5(k).

AS AND FOR A SECOND CAUSE OF ACTION
85.

Tolle re-alleges and incorporates the above allegations of this complaint as if set

forth fully herein.
86.

The Civil Rights Act under 42 U.S.C. § 2000e-2(a)(l) prohibits discrimination

against any individual with respect to his conditions or privileges of employment, because of
such individual’s religion.
87.

According to the Equal Employment Opportunity Commission’s website

https://www.eeoc.gov/laws/type/harassment.cfm, harassment is a form of

at

employment

discrimination that violates Title VII of the Civil Rights Act of 1964, which is unwelcome
conduct that is based on religion where 1) enduring the offensive conduct becomes a condition of
continued employment, or 2) the conduct is severe or pervasive enough to create a work
environment that a reasonable person would consider intimidating, hostile or abusive. Offensive
conduct may include offensive objects and interference with work performance.7
88.

This Second Cause of Action relates to unwelcome conduct or object and/or

interference of work performance that is based on religion where “1) enduring the offensive
conduct becomes a condition of continued employment”.
89.

Upon information and belief, the Rockwell Collins introduction of a radical policy

to fly the Gay Pride flag for a whole month over all of its locations without any accommodation
of those with religious objections was a marked departure from its past actions while Tolle was
employed there and is quite different than what is found in the rest of the aerospace industry.
7 See footnote 1.
34

This is substantiated by the facts, including but not limited to the following:
a) The UTC FAQ document on the company policy of flying the Gay Pride flag
indicated that this was a new and marked departure from past practices even for UTC and
Rockwell Collins;
b) Tolle, who had worked for approximately 20 years with the aerospace and defense
industries, had never seen the Gay Pride flag flown in this manner at any other company in the
past;
c) Tolle had never seen the Gay Pride flag flown at Rockwell Collins locations before,
including at the two locations where he had worked in Warrenton or in Sterling.
90.

Upon information and belief, Rockwell Collins flying of the Gay Pride flag, an

object which Tolle found unwelcome and offensive due to religious reasons, for 30 days in or
around June, 2019, at all locations of the company was sufficiently severe and pervasive enough
to create a work environment which a reasonable person would consider intimidating, hostile or
abusive. This is substantiated by the facts, including but not limited to the following:
a) Tolle reported to his supervisor Mechiche-Alami and Brewer that he found the flying
of the Gay Pride flag unwelcome based on his religious belief and practice;
b) Tolle told his supervisor Mechiche-Alami that he found the Gay Pride flag offensive,
including in his e-mail on or around June 27, 2019: “...I will probably go home to work offsite as
I still don’t feel comfortable working under a flag which I find offensive for religious reasons”;
c) The UTC FAQ document on the company policy of flying the Gay Pride flag
indicated that this was a new policy;
d) The company had not flown the Gay Pride flag at any of the locations where Tolle
worked for the past 3 years: “For the almost 3 years I have worked with Rockwell Collins, I
have never seen another minority flag flown over the company except this one [instance]....”;
35

e) Tolle’s communication with management on or around June 27, 2019, showed that he
found the work environment which displayed this offensive symbol as intimidating, hostile or
abusive and interfering with his work: “...I will probably go home to work offsite as I still don’t
feel comfortable working under a flag which I find offensive for religious reasons.”
f) Tolle’s e-mail communications with Rockwell Collins on or around September 3,
2019, which followed Rockwell Collins’ responses to his complaints showed that he believed
that the continuing actions and policies at Rockwell Collins created an intimidating, hostile or
abusive work environment based on his religious belief or practice: “...I believe that flying the
Gay Pride flag over the company will be enough so that a reasonable person would consider such
a pervasive action to create an intimidating or hostile workplace for persons like me.”
91.

Upon information and belief, Rockwell Collins’ communications with Tolle failed

to indicate that the company would be willing to exercise any reasonable care to prevent or
promptly correct any harassing action in the future or rule out the possibility that the company
would continue the actions or flying of the object which Tolle found offensive due to religious
reasons in the future so that there was no reason for Tolle to believe that the harassing
environment would end. Upon information and belief, the flying of the Gay Pride flag as a
symbol of the company's support of the Gay Pride movement for many days in 2019 and the
likelihood that the company policy which promoted this conduct or action will not change for
any year in the future created an action by the company which was severe and pervasive to create
a work environment that a reasonable person would consider intimidating, hostile or abusive.
This is substantiated by the facts, including but not limited to the following:
a) None of Tolle’s managers told him that this would be corrected or not repeated in the
future;
b) None of Rockwell Collins’ responses to Tolle’s complaints about the flying of the
36

.Gay.Pride.flag said that this action would be corrected or not repeated in the future;
c) The statement by Rockwell Collins’ Attorney Wade showed no regret or interest in
making any corrections to the company’s actions and expressed pride in the past action so that it
was probable that Rockwell Collins would continue the actions or flying of the object which
Tolle found offensive due to religious reasons in the future.: “We were recently proud to support
employees who are members of the LGBTQ+ community during Pride Month”;
d) Tolle’s e-mail communications with Rockwell Collins on or around September 3,
2019, showed that the Rockwell Collins responses did not offer any prospect of change in the
company’s actions or policy in the future: “Unfortunately, the responses I received from HR and
the legal counsel failed to offer any accommodation of my religious practices, at any location in
die company”;
e) Tofle’s e-mail communications with Rockwell Collins on or around September 3,
2019, showed that he believed that the continuing actions and policies at Rockwell Collins
created an intimidating, hostile or abusive work environment based on his religious belief or
practice: “I believe that flying the Gay Pride flag over the company will be enough so that a
reasonable person would consider such a pervasive action to create an intimidating or hostile
workplace for persons like me.”
92.

Upon information and belief, Tolle’s communications with Rockwell Collins

management made it clear that the display of the Gay Pride flag was conduct which he found
unwelcome in the work place. Tolle told management that he supported policies which were
neutral to homosexuals in the work place. Upon information and belief, Tolle made it clear that
the preference of the company to display the Gay Pride flag was not a neutral policy and made
the work place unwelcoming to persons like Tolle who found this object offensive due to their
religious beliefs. This is substantiated by the facts, including but not limited to the following:
37

_

a) Tolle reported to his supervisor Mechiche-Alami and Brewer that he found the flying

of the Gay Pride flag unwelcome based on his religious belief and practice;
b) Tolle’s e-mail to his supervisor on or around June 27, 2019, showed that the actions
by Rockwell Collins was unwelcome and interfering with his work: “...I will probably go home
to work offsite as I still don’t feel comfortable working under a flag which I find offensive for
religious reasons”;
c) Tolle’s complaints to his supervisors and in his subsequent e-mail on or around July
17, 2019, stated that he found Rockwell Collins’ actions biased and non-neutral: “I view this
flag as something which is not neutral, but something which promotes one minority’s viewpoint
about pride in homosexual lifestyles and treats other minority viewpoint’s [sic.] who don’t agree
with them as bigots.”
93.

Upon information and belief, Tolle’s communication with Rockwell Collins

management and their representatives made it clear that he did not support the Gay Pride flag or
the Gay Pride movement due to his religious beliefs and practice. Upon information and belief,
although Tolle made it known to the company that Tolle could support their equal opportunity
policies which are neutral to sexual orientation in the work place, Tolle complained to
management that the severe and pervasive nature of displaying the non-neutral symbol of the
Gay Pride flag was offensive based on Tolle’s religious beliefs and practice and such conduct
created an intimidating and/or hostile work environment where it would be difficult for Tolle to
continue to work. This is substantiated by the facts, including but not limited to the following:
a) Tolle reported to his supervisor Mechiche-Alami and Brewer that he found the flying
of the Gay Pride flag unwelcome based on his religious belief and practice;
b) Tolle’s e-mail to his supervisor on or around June 27, 2019, showed that the actions
by Rockwell Collins was unwelcome and interfering with his work: “...I will probably go home
38

b) On or around June 27, 2019, Tolle met with Rockwell Collins Engineering Manager
Brewer, when Tolle complained to Brewer about the Gay Pride flag which was offensive to Tolle
due to religious beliefs and asked Brewer if it would be possible to find a location where he
could work as an accommodation of his religious beliefs and practices.
c) Tolle’s e-mail on or around July 17, 2019, also repeated Tolle’s request for an
accommodation of his religious beliefs and practices by finding another location where he could
work without being exposed to the offensive object: “If the company is committed to flying the
Gay Pride flag every year, are there locations within the company which will not have to work
under this flag?”
97.

Upon information and belief, no response to Tolle’s complaints or questions by

Rockwell Collins included an offer of a reasonable accommodation of Tolle’s religious belief or
practice and Rockwell Collins never offered Tolle a reasonable accommodation which would
correct the harassing action or prevent Tolle from being subjected to the intimidating or hostile
work environment caused by the display of an object which Tolle found offensive due to his
religious belief or practice. This is substantiated by the facts, including but not limited to die
following:
a) No offer of a reasonable accommodation was made by Tolle’s supervisor MechicheAlami;
b) No offer of a reasonable accommodation as made during Tolle’s complaints to
Brewer;
c) No offer of a reasonable accommodation was made by the Human Resources
representative in her e-mail response on or around July 18, 2019 or any other communication by
her;
d) No offer of a reasonable accommodation was made within Wade’s e-mail response on
42

- or around July 23, 2019 or any other communication by Wade;
e) No other offer of a reasonable accommodation was communicated to Tolle by
Rockwell Collins at any time after Tolle’s complaint to Rockwell Collins.
98.

Upon information and belief, the display of the Gay Pride flag by Rockwell

Collins at all locations in the future would force Tolle to endure unwelcome conduct or object
which Tolle found offensive due to religious belief or practice as a condition of continued
employment. This was substantiated by the facts, including but not limited to the following:
a) Tolle indicated to his supervisor Mechiche-Alami and Brewer that he found the flying
of the Gay Pride flag offensive based on his religious belief and practice;
b) Tolle’s e-mail to his supervisor on or around June 27, 2019, showed that the actions
by Rockwell Collins was offensive based on his religious belief or practice: “...I will probably
go home to work offsite as I still don’t feel comfortable working under a flag which I find
offensive for religious reasons”;
c) Tolle’s e-mail on or around September 3, 2019, stated: “For a whole month of the
current year, Collins Aerospace management chose to fly a flag over our location which, to me,
is an offensive object....”;
d) None of the Rockwell Collins responses to Tolle’s complaints indicated that the
Rockwell Collins policies and actions concerning the flying of the Gay Pride flag would change
and it was reasonable for Tolle to believe that he would be subjected to the display of the object
which he found offensive due to his religious belief or practice in the future if he continued to
work at Rockwell Collins.
99.

Upon information and belief, Tolle never received any offer of accommodation of

Tolle’s religious belief or practice from Rockwell Collins and without any offer of a reasonable
accommodation of Tolle’s religious belief or practice by Rockwell Collins, Tolle would be forced
43

-Ms religious belief-or practice in the-future if he continued to work at Rockwell Collins.
100.

Upon information and belief, Tolle believed that Rockwell Collins’ display of

unwelcome conduct or object which was offensive to Tolle based on religion required Tolle to
endure offensive conduct as a condition of continued employment. This is substantiated by the
facts, including by the statement in Tolle’s e-mail on or around September 3, 2019: “it would
require me to change my religious practices and to endure the display of an offensive object as a
condition of my employment.”
101.

Upon information and belief, Tolle took advantage of several opportunities

provided by Rockwell Collins to prevent or correct Rockwell Collins’ conduct or object which
Tolle found offensive due to religious reasons. This is substantiated by the facts, including but
not limited to the following:
a) Tolle first took advantage of reporting his complaint to the supervisors in his
operational chain of command, including Mechiche-Alami, and also Engineering Manager
Brewer.

Tolle told Mechiche-Alami that the Rockwell Collins conduct or object was so

offensive to Tolle based on religious reasons that it interfered with his ability to work at the
location where it was displayed, stating: “...I will probably go home to work offsite as I still
don’t feel comfortable working under a flag which I find offensive for religious reasons.” Tolle
told Brewer that Tolle found the flying of the Gay Pride flag offensive due to religious reasons
and that if it was the policy for Rockwell Collins to fly this every year, this would create an
offensive or hostile work environment under which Tolle could not continue to work.
b) Tolle also took advantage of the Rockwell Collins’ Human Resource complaint
process to report his complaints of the harassing nature of Rockwell Collins’ actions by sending
multiple e-mails to Rockwell Collins Human Resource representatives in or around July, 2019,
attempting to pursue preventive or corrective options, including the following:
45

his religious beliefs, by failing to offer Tolle any accommodation for Tolle’s religious belief
or practice, and thus causing Tolle to endure offensive conduct or object as a condition of
continued employment, Rockwell Collins discriminated against Tolle and/or subjected Tolle
to a hostile work environment in violation of the Civil Rights Act based on an unlawful
employment practice under 42 U.S.C. § 2000e-2(m).
106.

Upon information and belief, the end of Tolle’s work at Rockwell Collins was a

constructive discharge, which is substantiated by the facts, including:
a) The past harassing behavior at Rockwell Collins and prospect of continuing harassing
behavior by flying an object Tolle found offensive due to religious reasons over all locations of
the company for 30 days every year in the future was sufficiently severe or pervasive to alter the
condition of Tolle’s employment;
b) Tolle tried to take advantage of the preventive or corrective opportunities offered by
Rockwell Collins including reporting his complaint to his supervisors and also reporting his
complaint separately to the Human Resources representative;
c) Rockwell Collins did not exercise reasonable care to prevent or promptly address any
of the harassing behavior;
d) Based on Rockwell Collins’ responses to his complaints, Tolle believed that the
abusive working environment due to the harassment had become so intolerable or that the
prospect of harassment in the future had become so intolerable that Tolle’s resignation was his
only option for getting relief from the harassment and Tolle’s only fitting response.
2nd Claim related to Second Cause of Action
107.

By discriminating against Tolle and/or subjecting Tolle to a hostile work

environment in violation of the Civil Rights Act, Rockwell Collins’ actions led to a
constructive discharge of Tolle.
49

against any individual with respect to his conditions or privileges of employment, because of
such individual’s religion.
115.

According to 29 CFR § 1605.2(b)(1), the “[Civil Rights Act] Section 701(j)

makes it an unlawful employment practice under [Civil Rights Act] section 703(a)(1) for an
employer to fail to reasonably accommodate the religious practices of an employee or
prospective employee, unless the employer demonstrates that accommodation would result in
undue hardship on the conduct of its business.”
116.

Upon information and belief, Tolle's long held religious conviction made him

observe the practice of not working under or being associated with the Gay Pride flag or being
associated in any other way with the movement that the flag represented. Tolle made this clear
to Rockwell Collins management on several occasions after the Gay Pride flag was flown in or
around June, 2019. This is substantiated by the facts, including but not limited to the following:
a) During his meetings with supervisor Mechiche-Alami and Brewer, Tolle told them
that his religious practice did not allow him to be associated with the Gay Pride flag and that he
would not be able to work under the flag due to his religious belief and practice;
b) Tolle’s e-mail to Mechiche-Alami on or around June 27, 2019, repeated his religious
objection to working where the Gay Pride flag was being flown: “...I will probably go home to
work offsite as I still don’t feel comfortable working under a flag which I find offensive for
religious reasons”;
c) Tolle’s e-mail on or around September 3, 2019, stated: “Additionally, my religious
practices do not allow me to work under a Gay Pride flag....”
117.

Upon information and belief, in or around June 2019, Tolle met with his Rockwell

Collins supervisor Mechiche-Alami and discussed the possibility of Rockwell Collins making an
accommodation which would let Tolle work at a site where the Gay Pride flag was not displayed.
52

Tolle told Mechiche-Alami that he would prefer to be able to work offsite or at another location
where this offensive object was not being displayed as an accommodation of his religious belief
during this meeting
118.

Upon information and belief, on or around June 27, 2019, Tolle met with

Rockwell Collins Engineering Manager Brewer and discussed working at another location as an
accommodation. Tolle asked Brewer at this time if it would be possible to find a location where
he could work as an accommodation of his religious belief and practice.
119.

Upon information and belief, Tolle’s e-mail on or around July 17, 2019, also

repeated Tolle’s request for an accommodation of his religious belief and practices by finding
another location where he could work without being exposed to the offensive object: “If the
company is committed to flying the Gay Pride flag every year, are there locations within the
company which will not have to work under this flag?”
120.

Upon information and belief, no response to Tolle’s complaints or questions by

Rockwell Collins included an offer of a reasonable accommodation of Tolle’s religious belief or
practices. This is substantiated by the facts, including but not limited to the following:
a) No offer of a reasonable accommodation was made by Tolle’s supervisor MechicheAlami;
b) No offer of a reasonable accommodation as made during Tolle’s complaints to
Brewer;
c) No offer of a reasonable accommodation was made by the Human Resources
representative in her e-mail response on or around July 18, 2019 or any other communication by
her;
d) No offer of a reasonable accommodation was made within Wade’s e-mail response on
or around July 23, 2019 or any other communication by Rockwell Collins Attorney Wade;
53

e) No other offer of a reasonable accommodation was communicated to Tolle by
Rockwell Collins at any time after Tolle’s complaint to Rockwell Collins.
121.

Upon information and belief, Tolle believed that he had received no offer of

reasonable accommodation of his religious belief or practices on or around September 3, 2019,
when he notified Rockwell Collins management that he could not work at Rockwell Collins due
to the display of the Gay Pride flag and turned down the employment offer given to him by
Rockwell Collins. This is substantiated by the facts, including but not limited to the following:
a) On or around September 3, 2019, Tolle informed Rockwell Collins that he “cannot
continue” working at Rockwell Collins and told the Rockwell Collins management that he had to
turn down the offer of employment for reasons including “ my religious practices do not allow
me to work under a Gay Pride flag”;
b) Tolle’s communications on or around September 3, 2019, stated:

“I raised my

concerns with management and HR representatives, requesting both clarification of the policy
and accommodation of my religious practices. Unfortunately, the responses I received from HR
and the legal counsel failed to offer any accommodation of my religious practices, at any
location in the company.”
122.

Rockwell Collins management responses to Tolle’s request for accommodation

also contained no demonstration that accommodating Tolle’s religious practices would result in
undue hardship on the conduct of Rockwell Collins’ business. This is substantiated by the facts,
including but not limited to the following:
a) No demonstration that any accommodation of Tolle’s religious practices would result
in undue hardship on the conduct of Rockwell Collins’ business was provided by supervisor
Mechiche-Alami or Brewer at any time after Tolle met with them about his complaint;
b) No demonstration that any accommodation of Tolle’s religious practices would result
54

____________________ Additional Claims related to Third Cause of Action
127.

As a direct and proximate cause of the aforementioned actions of Rockwell

Collins, Tolle has suffered injuries and damages, including but not limited to, loss of past
and future earnings, loss of past and future benefits, damage to professional reputation,
and undue pain and suffering to Tolle and his family.
128.

Such violations of the Civil Rights Act by Rockwell Collins were intentional

and were reckless, callous and/or indifferent to Tolle’s federally protected rights and for
these reasons, Tolle requests an award of compensatory and/or punitive damages pursuant
to 42 U.S.C. § 1981a(a)(l).
129.

Tolle requests award of attorney’s fees pursuant to 42 U.S.C. § 2000e-5(k).

AS AND FOR A FOURTH CAUSE OF ACTION
130.

Tolle re-alleges and incorporates the above allegations of this complaint as if set

forth fully herein.
131.

The Civil Rights Act under 42 U.S.C. § 2000e-2(a)(l) prohibits discrimination

against any individual with respect to his conditions or privileges of employment, because of
such individual’s religion.
132.

The EEOC Compliance Manual states: “Religious harassment in violation of Title

VII occurs when employees are...required or coerced to abandon, alter or adopt a religious practice
as a condition of employment....”8
133.

Upon information and belief, Tolle communicated to Rockwell Collins management

that continuing to work at a location that flew a Gay Pride flag was contrary to his religious
practice. This is substantiated by the facts, including but not limited to the following:
a) In or around June 2019, Tolle met with Rockwell Collins supervisor Mechiche-Alami
8

See EEOC Compliance Manual on religious discrimination at https://www.eeoc.gov/policy/docs/rejigion.html
58

and told him that continuing to work at a location that flew a Gay Pride flag was contraiy to his
religious practice, which did not allow him to participate in any activity which publicly associated
him with the Gay Pride movement. No accommodation was provided to Tolle after his complaint to
Mechiche-Alami.
b) Tolle’s e-mail to his supervisor Mechiche-Alami on or around June 27, 2019, showed
that Tolle could not work in view of the offensive conduct or object due to his religious practice:
"...I will probably go home to work offsite as I still don’t feel comfortable working under a flag
which I find offensive for religious reasons.”
c) Upon information and belief, Tolle met with Rockwell Collins Engineer Manager
Brewer and said he found the flying of the Gay Pride flag offensive due to religious reasons and
that if it was the policy for Rockwell Collins to fly this every year, this would create an offensive or
hostile work environment under which Tolle could not continue to work.
134.

Upon information and belief, Tolle sent complaints to Rockwell Collins Human

Resources representatives, but Tolle received no response from Rockwell Collins which would
indicate that Tolle was not required to alter, abandon or adopt a religious practice in order to
continue working at Rockwell Collins. This is substantiated by the facts, including but not
limited to the following:
a) Tolle’s e-mail to Rockwell Collins Human Resources representative on or around July
18, 2019, made it clear that his complaint about the Gay Pride flag was due to discrimination
based on his religious belief and practice, stating:

“This [Rockwell Collins]...response

underscores my concerns that a person who shares my religious convictions and opinions which
do not support the Gay Pride agenda will normally be treated as a homophobe or bigot within the
company” and “For these reasons, I am still concerned that...[Rockwell Collins]...is a workplace
which will not welcome people with my religious beliefs....Without any further information, I
59

Collins, Tolle has suffered injuries and damages, including but not limited to, constructive
discharge, loss of past and future earnings, loss of past and future benefits, damage to
professional reputation, and undue pain and suffering to Tolle and his family.
148.

Such violations of the Civil Rights Act by Rockwell Collins were intentional

and were reckless, callous and/or indifferent to Tolle’s federally protected rights and for
these reasons, Tolle requests an award of compensatory and/or punitive damages pursuant
to 42 U.S.C. § 1981a(a)(l).
149.

Tolle requests award of attorney’s fees pursuant to 42 U.S.C. § 2000e-5(k).

AS AND FOR A FIFTH CAIJSF. OF ACTION
150.

Tolle re-alleges and incorporates the above allegations of this complaint as if set

forth fully herein.
151.

The Civil Rights Act under 42 U.S.C. § 2000e-2(k) states:

“An unlawful

employment practice based on disparate impact is established under this subchapter [of the Civil
Rights Act] only if (i) a complaining party demonstrates that a respondent uses a particular
employment practice that causes a disparate impact on the basis of...religion...and the respondent
fails to demonstrate that the challenged practice is job related for the position in question and
consistent with business necessity....”
152.

A fifth cause of action due to violation of the Civil Rights Act brought to light

after the actions of Collins management in this matter is the disparate treatment that the company
targets toward Christian minorities when compared to the homosexual minority of employees
represented by the Gay Pride flag and movement. Upon information and belief, the flying of the
Gay Pride flag by Rockwell Collins reflects a deep seated bias in favor of the Gay Pride
movement and homosexual employees or others who support Gay Pride. This is substantiated by
69

the facts, including but not limited to the following:
a) According to the UTC FAQ document, the only other minority flag flown was the
Prisoner of War (POW) flag, which is only flown at a single location on isolated days during the
year, and no other minority was permitted to fly a flag at that time;
b) The UTC FAQ document made it clear that it was company policy to favor the Gay
Pride movement by stating:

“The company leadership is fully supportive of the effort to

recognize PRIDE month as we believe it reflects many of our company’s values....” Noteworthy
is that the document did not make any attempt to express such wholehearted support for any
other minority;
c) Rockwell Collins’ Attorney Wade’s e-mail on or around July 23, 2019, expressed
clear favor towards the minority represented by the Gay Pride flag: “We were recently proud to
support employees who are members of the LGBTQ+ community during Pride Month”;
d) Wade’s e-mail language also reflected a bias in Rockwell Collins policies which was
markedly in favor of Gay Pride while unwilling to show public support for any other minority
point of view, adding the following statement after Wade’s glowing comments about the
LGBTQ+ community: “...the Company does not sponsor or support any particular religious or
political viewpoint, practice or membership to the exclusion of others”.
153.

Upon information and belief, this bias influences the work environment at

Rockwell Collins and the hiring practices used by Rockwell Collins to recruit and hire new
employees. Upon information and belief, the bias exhibited by Rockwell Collins in favor of Gay
Pride and homosexual employees specifically influences Rockwell Collins’ treatment of
Christian employees and candidates who do not support Gay Pride due to religious reasons. The
following is an example of the facts which shows that Rockwell Collins management’s default
belief is that Christians are bigots:
70

c) The Rockwell Collins’ Human Resources response on or around July 18, 2019, shows
that Rockwell Collins management is biased against Christians who may share Tolle’s objection
to the campaign: “If you use derogatory language to refer to someone due to their...sexual
orientation...that is not tolerated.”
d) Tolle’s e-mail on or around September 3, 2019 reported to Rockwell Collins
management that he could not work at Rockwell Collins due to the continuing policy and actions
of Rockwell Collins which were biased in favor of Gay Pride minorities and biased against
Christians who do not support Gay Pride:

‘Tor a whole month of the current year, Collins

Aerospace management chose to fly a flag over our location which, to me, is an offensive object
which represents a social movement that has been known for retaliatory and discriminatory
practices against Christians who hold my religious convictions. With the many examples of this
over the past years, I believe that flying the Gay Pride flag over the company will be enough so
drat a reasonable person would consider such a pervasive action to create an intimidating or
hostile workplace for persons like me.”
155.

Upon information and belief, the flying of the Gay Pride flag by Rockwell Collins

over all of its locations gives rise to a work environment that a reasonable person would consider
intimidating, hostile or abusive for a person who does not support Gay Pride or sees the Gay
Pride flag as offensive due to religious reasons. Specifically, the flying of the Gay Pride flag by
Rockwell Collins over all of its locations gives rise to a work environment that a reasonable
person would consider intimidating, hostile or abusive to Christian employees.

This is

substantiated by the facts, including but not limited to the following:
a) Tolle’s e-mail complaint on or around July 17, 2019, stated: “...as someone who has
religious convictions which do not make me proud of Homosexuality or support the Gay Pride
agenda, I was veiy disappointed to see...[Rockwell Collins]...promoting this flag and signaling
72

that people with religious convictions like mine need not apply” and “The concerns I have about
applying for a job with...[Rockwell Collins]...is whether the public display of the Gay Pride flag
by the company means that...[Rockwell Collins]...is not welcoming to people who do not share
the agenda that the flag undeniably represents”;
b) Tolle’s complaints to his supervisors and in his subsequent e-mail on or around July
17, 2019, stated that he found Rockwell Collins’ actions biased and non-neutral: “I view this
flag as something which is not neutral, but something which promotes one minority’s viewpoint
about pride in homosexual lifestyles and treats other minority viewpoint’s [sic.] who don’t agree
with them as bigots;
c) Tolle’s response to Rockwell Collins Human Resources representative on or around
July 18, 2019 stated: “This...underscores my concerns that a person who shares my religious
convictions and opinions which do not support the Gay Pride agenda will normally be treated as
a homophobe or bigot within the company;” and “For these reasons, I am still concerned that...
[Rockwell Collins]...is a workplace which will not welcome people with my religious
beliefs....Without any further information, I will continue to consider...[Rockwell Collins]...as a
place where Christians are not as welcome as others....”;
d) Tolle’s e-mail on or around September 3, 2019, noted the hostile work environment
created by the Gay Pride flag: “For a whole month of the current year, Collins Aerospace
management chose to fly a flag over our location which, to me, is an offensive object which
represents a social movement that has been known for retaliatory and discriminatory practices
against Christians who hold my religious convictions. With the many examples of this over the
past years, I believe that flying the Gay Pride flag over the company will be enough so that a
reasonable person would consider such a pervasive action to create an intimidating or hostile
workplace for persons like me.”
73

156.

Upon information and belief, the flying of the Gay Pride flag reflects the bias of

Rockwell Collins policies and actions against minority Christian employees and indicates a
broader bias in the Rockwell Collins workplace which gives rise to a disparate impact to
Christian employees who do not support the Gay Pride movement. Upon information and belief,
Tolle was not the only person working at Rockwell Collins who found the work environment to
be intimidating, hostile or abusive due to religious reasons based on Rockwell Collins offensive
conduct or object.

Upon information and belief, the intimidating, hostile or abusive work

environment caused by the Rockwell Collins bias against Christian minorities and/or Rockwell
Collins’ flying of the Gay Pride flag contributed to other employee departure. Upon information
and belief at least one other employee at Rockwell Collins RCCT told Tolle that he was leaving
and thought that the flying of the Gay Pride flag showed a radical change in the culture away
from Christian values at the company compared to prior years, saying: “the company is not like
it used to be” or words to that effect. Upon information and belief the effect, of the Rockwell
Collins actions and flying of the Gay Pride flag which contributed to an intimidating, hostile or
abusive work environment and represented a culture which was biased against Christian
employees who do not support Gay Pride is evidence of the disparate impact which the Rockwell
Collins conduct or policies has on employees who share Tolle’s religious belief or practice.
157.

For these reasons, the current Rockwell Collins policies and practices are

unwelcoming to Christians and give rise to a culture and work environment that a reasonable
person would consider intimidating, hostile or abusive and would have a disparate impact on
Christians like Tolle. Upon information and belief, the hostile workplace will also have a
disparate impact on candidates who are Christian during the hiring process. In Tolle’s case, the
hostile work environment caused by the display of the object which Tolle found offensive due to
religious reasons led Tolle to believe that he could not continue working at Rockwell Collins and
74

APPENDIX D
Excerpts from the Record in the Lower Courts

Appendix D

Case l:20-cv-00174-LMB-JFA Document 10 Filed 05/19/20 Page 1 of 8 PagelD# 253

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
ALEXANDRIA DIVISION
JAMES TOLLE,
Plaintiff,

Civil Action l:20-cv-00174-LMB-JFA

v.
ROCKWELL COLLINS CONTROL
TECHNOLOGIES, INC., et al.,
Defendants.

DEFENDANTS’ REPLY IN SUPPORT OF THEIR MOTION TO DISMISS
Plaintiffs Response Brief, Opposition, and Arguments to Defendants’ Motion to Dismiss
makes clear that, rather than being subjected to religious discrimination or denied an
accommodation, Plaintiff is attempting to impose his religious views upon Defendants and his co­
workers at Rockwell Collins by demanding that the Company cease flying the Gay Pride flag. In
2019, Rockwell Collins, as part of its desire to attract, retain, and celebrate a diverse workforce,
chose to fly the Gay Pride flag during Pride month in support of the Company’s LGBTQ
employees and their community. Rockwell Collins, however, did not ask Plaintiff to adhere to
any policy or practice where he was actively required to participate, engage, endorse or do anything
at all related to the flag or the Gay Pride movement. Nor was Plaintiff asked or required to change
or modify his religious beliefs. To the contrary, Rockwell Collins specifically confirmed to
Plaintiff that it did not support any particular viewpoint or preference over another, and expressly
stated that all employees are entitled to their own beliefs. Rockwell Collins only expressed the
expectation that Plaintiff, like every other employee, come to work each day and treat co-workers
in a non-discriminatory manner.

Case l:20-cv-00174-LMB-JFA Document 10 Filed 05/19/20 Page 3 of 8 PagelD# 255

thereby attempting to increase tolerance of diversity and eradicate discrimination against LGBTQ
individuals in the workplace, is entirely consistent with the goals and objectives of civil rights
statutes generally. See Peterson v. Hewlett-Packard, 358 F.3d 599, 603 (9th Cir. 2004).' While
flying the Gay Pride flag during June 2019 may have devoted particular attention to supporting
diversity as it relates to LGBTQ employees, “such an emphasis is in no manner unlawful.” Id. at
601,603 (finding employer’s diversity initiative that supported gay employees, but did not permit
religious or political messages from other employees to be included as part of the initiative, to be
lawful and nondiscriminatory to Christian employee who believed “homosexual activities violate
die commandments contained in the Bible”).
Like the plaintiff in Peterson, Plaintiff made abundandy clear to Rockwell Collins that he
believes homosexuality is a sin. Like the employer in Peterson, Rockwell Collins did not ask
Plaintiff to engage in a homosexual relationship or to condone homosexual relationships.
Rockwell Collins did not ask Plaintiff to change or modify his beliefs or require him to participate
in any activities supporting the Gay Pride movement. Rockwell Collins did not ask Plaintiff to
wear a Gay Pride t-shirt, display a Gay Pride flag at his desk, or attend activities related to Gay
Pride month. Plaintiff was not even required to look at the flag: he merely had to pass by it in the
parking lot before he entered the building for work.
In short, Rockwell Collins did not ask Plaintiff to do a single thing related to Gay Pride.
Nor did Rockwell Collins discipline Plaintiff for expressing views about homosexuality being a

1 Notably, the Peterson court also found that an employee’s requested accommodation that an
employer cease a program designed to encourage diversity and discourage discrimination in the
workplace is not a reasonable accommodation as it constitutes an undue burden on the employer.
Id, at 607-608. Similarly, any request by Plaintiff that Rockwell Collins remove the Gay Pride
flag at the location where he works would constitute an undue burden and is not a reasonable
accommodation.

Case l:20-cv-00174-LMB-JFA Document 10 Filed 05/19/20 Page 4 of 8 PagelD# 256

sin.

Like the employer in Peterson, Rockwell Collins could have terminated Plaintiffs

employment when he expressed his anti-gay views and intention to express those views to his co­
workers. Id. (granting summary judgment in favor of employer who terminated plaintiff for
continually displaying Bible scripture intended to hurt and demean his homosexual co-workers);
Flanagan v. City of Richmond, 692 F. App’x 490, 491 (9th Cir. 2017) (upholding termination of
employee expressing religion-based anti-gay views at work by holding that employer’s “interest
in maintaining a discrimination- and harassment-free work environment outweighed any... interest
[plaintiff] had in expressing her religious views.”). The fact that the Company could have
terminated Plaintiff, but chose simply to deny his request to remove the flag and ask that he treat
his co-workers with respect, underscores that Plaintiff cannot pursue a claim for religious
discrimination and harassment.2 Moreover, if, as Plaintiff seems to assert, employers are required
to conform to the individual moral code of each employee who seeks to impose their personal and
individual views on the rest of the workforce, the result is a slippery slope with absurd results not
required by the law. Peterson, 358 F.3d at *607 (stating Title VII does not “require an employer
to accommodate an employee’s desire to impose his religious beliefs upon his co-workers.”)
(citing Chalmers v. Tulon Co. of Richmond, 101 F. 3d 1012, 1017 (4th Cir. 1996)). Indeed, it is
axiomatic that employers are not required to engage in the wholesale accommodation of an
individual employee’s own personal views. Even if that employee’s beliefs are sincerely held,
such a requirement logically would allow any employee to impose their own beliefs and morals,
no matter what they are, upon the employer and other employees.

2 Moreover, the Company offered Plaintiff a full-time position even after he complained about the
flag and sought to undermine the Company’s diversity goals.

